<html>
<title> - INTEGRATIVE CARE: A PATHWAY TO A HEALTHIER NATION</title>
<body><pre>[Senate Hearing 111-526]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-526

                    INTEGRATIVE CARE: A PATHWAY TO 
                           A HEALTHIER NATION

=======================================================================

                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

           EXAMINING INTEGRATIVE CARE, FOCUSING ON A PATHWAY 
                         TO A HEALTHIER NATION

                               __________

                           FEBRUARY 26, 2009

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                                 senate





                  U.S. GOVERNMENT PRINTING OFFICE
47-852 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut       MICHAEL B. ENZI, Wyoming
TOM HARKIN, Iowa                       JUDD GREGG, New Hampshire
BARBARA A. MIKULSKI, Maryland          LAMAR ALEXANDER, Tennessee
JEFF BINGAMAN, New Mexico              RICHARD BURR, North Carolina
PATTY MURRAY, Washington               JOHNNY ISAKSON, Georgia
JACK REED, Rhode Island                JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont           ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                    LISA MURKOWSKI, Alaska
ROBERT P. CASEY, JR., Pennsylvania     TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina           PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon

           J. Michael Myers, Staff Director and Chief Counsel
     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                  (ii)





                            C O N T E N T S

                               __________

                               STATEMENTS

                      THURSDAY, FEBRUARY 26, 2009

                                                                   Page
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa, opening 
  statement......................................................     1
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................     3
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..     4
    Prepared statement...........................................     5
Oz, Mehmet C., M.D., Director, Cardiovascular Institute and 
  Complementary Medicine Program, New York-Presbyterian Hospital, 
  New York, NY...................................................     6
    Prepared statement...........................................     9
Hyman, Mark, M.D., Founder and Medical Director, The 
  UltraWellness Center, Lenox, MA................................    26
    Prepared statement...........................................    28
Ornish, Dean, M.D., Founder and President, Preventive Medicine 
  Research Institute, Sausalito, CA..............................    37
    Prepared statement...........................................    39
Weil, Andy, M.D., Director, Arizona Center for Integrative 
  Medicine, University of Arizona, Vail, AZ......................    44
    Prepared statement...........................................    48

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Kennedy..............................................    76

                                 (iii)

  

 
                    INTEGRATIVE CARE: A PATHWAY TO 
                           A HEALTHIER NATION

                              ----------                              


                      THURSDAY, FEBRUARY 26, 2009

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:01 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Tom Harkin 
presiding.
    Present: Senators Harkin, Mikulski, and Enzi.

                  Opening Statement of Senator Harkin

    Senator Harkin. The Senate Committee on Health, Education, 
Labor, and Pensions will come to order.
    Good morning, everyone. This is the latest in an ongoing 
series of hearings that will guide us as we craft comprehensive 
healthcare reform legislation in the months ahead.
    In his speech to Congress Tuesday evening, President Obama 
made clear that he expects Congress to pass a bill this year, 
and we fully intend to take him up on that challenge. I might 
also point out that President Obama, in his speech the other 
evening, clearly mentioned prevention and said that prevention 
must be a central part of it, and it was only through 
prevention that we could keep people healthy and reduce costs. 
That was a welcoming comment by the President.
    I want to thank our committee Chair, Senator Kennedy, for 
giving the go-ahead for this hearing. Of course, we look 
forward to his speedy return to this committee.
    I am pleased to co-chair this morning's hearing with 
Senator Mikulski. Senator Mikulski and I have worked for a long 
time on what might be called integrative health, alternative 
health practices. We have worked and our staffs have worked 
together on this for many, many, many years.
    I am eager to continue to work with Senator Mikulski, as we 
have said before, to make sure that alternative, complementary, 
or integrative medicine is a key part of our healthcare reform.
    I am eager to hear our distinguished witnesses' ideas on 
using integrative care to keep people healthy, improve 
healthcare outcomes, and reduce our costs. It is fashionable 
these days to quote Abraham Lincoln. So, I guess I will.
    [Laughter.]
    In his 1862 address to Congress, Lincoln said,

          ``The dogmas of the quiet past are inadequate to the 
        stormy present. The occasion is piled high with 
        difficulty. As our case is new, so we must think anew 
        and act anew. We must disenthrall ourselves, and then 
        we shall save our country.''

    Well, clearly, the time has come to ``think anew'' and to 
``disenthrall ourselves'' from the dogmas and biases that have 
made our current healthcare system--based overwhelmingly on 
conventional allopathic medicine--in so many ways wasteful and 
dysfunctional. It is time to end the discrimination against 
alternative healthcare practices.
    It is time for America's healthcare system to emphasize 
coordination, continuity of care, patient-centeredness, and 
prevention. It is time to adopt an integrative approach that 
takes advantage of the very best scientifically based medicines 
and therapies, whether conventional or alternative.
    This is about giving people the pragmatic alternatives they 
want, while ending discrimination against practitioners of 
alternative healthcare. It is about improving healthcare 
outcomes. It is, yes, about reducing healthcare costs. 
Generally speaking, alternative therapies are less expensive 
and less intrusive, and we need to take advantage of that.
    We need to place much greater emphasis on preventing 
disease and keeping people healthy rather than merely treating 
people once they become sick, and integrative care can help us 
achieve that goal. This has been a priority of mine going back 
many years.
    In 1992, I authored legislation creating the Office of 
Alternative Medicine at the National Institutes of Health. I 
might just say that this wasn't something I just woke up one 
morning and decided to do. It was because of a friend of mine 
that I had known for many years and served in the House with, 
who had left the House of Representatives because of an 
illness, who sought out alternative care and became well.
    That was Congressman Berkley Bedell, who is with us today. 
Former Congressman Bedell, who led the charge and got me 
thinking about it. I hope Berkley doesn't mind me telling this 
little personal story. I saw Berkley--this was around 1988. He 
had left the House. He was very ill. I had seen him once, and I 
went home and told my wife, Ruth, I said, ``You know, I think I 
have seen Berkley for the last time.''
    That was 1988. Look at him now.
    [Laughter.]
    He used alternative therapies, and that got me thinking 
about it. What are we missing? So, because of that and talking 
with Berkley, I set up this Office of Alternative Medicine 
through the Appropriations Committee.
    In 1998, working with then-Senator Frist, we sponsored 
legislation to elevate the office to what is today the National 
Center for Complementary and Alternative Medicine.
    Now, again, I must say that one of the purposes--when we 
drafted that legislation back in 1992 and continuing in 1998--
of this center was to investigate and validate alternative 
approaches. Quite frankly, I must say publicly it has fallen 
short. The focus--I think, quite frankly, in this center and 
previously the office before it--most of its focus has been on 
disproving things rather than seeking out and approving things.
    Since 1992, the field has evolved and matured. Today, we 
are not just talking about alternative practices but about the 
integration between conventional and alternative therapies in 
order to achieve truly integrative health. We need to have 
practitioners talking with each other, collaborating to treat 
the whole person. This is the model we intend to build into our 
healthcare reform bill.
    On several occasions, I have laid down a public marker, 
saying that if we pass a bill that greatly extends health 
insurance coverage but does nothing to create a dramatically 
stronger prevention and public health infrastructure and 
agenda, then we will have failed the American people.
    This morning, I want to lay down a second marker. If we 
fail to seize this unique opportunity to adopt a pragmatic, 
integrative approach to healthcare, that, too, would constitute 
a serious failure. I know both Senator Mikulski and I do not 
intend to fail in that effort.
    We welcome our witnesses. We look forward to hearing their 
best ideas, and I will recognize Senator Mikulski and then 
Senator Enzi.

                     Statement of Senator Mikulski

    Senator Mikulski. First of all, we want to welcome both Dr. 
Oz and our other distinguished panel that will come. I am going 
to be brief in my remarks because there will be a vote at 10:30 
a.m. We want to hear from Dr. Oz and then be able to move very 
quickly to our second panel.
    Senator Harkin and I each chair a working group in terms of 
the healthcare debate. Senator Harkin chairs the one on 
prevention. I chair the one on quality. We both feel that that 
is almost an artificial barrier on many of the topics because 
not only should medicine and healthcare be complementary, but 
we need to begin to change the paradigm and have a continuum of 
healthcare.
    This is why we are doing a joint hearing this morning 
because we are talking about prevention, and we are talking 
about quality, and we are talking about improving the health 
outcomes of the American people.
    This is the second set of hearings in what is really a 
week-long discussion in Washington on the concept of 
integrative medicine or integrative healthcare, which is to be 
patient-centered, focused on health outcomes, and how do we 
offer to marshal the resources of what our current system has 
to offer to think differently and also to empower the American 
people to also take better charge of their own healthcare? This 
is what the dialogue this week is all about.
    What is the sound science involved? How can we better 
identify the elements that are involved in prevention of 
disease, but also not only the prevention of disease, but the 
promotion of healthcare? If we promote healthcare, whether it 
is fresh fruits and vegetables in our schools, all the way 
through a variety of other things, we will be actually 
promoting healthcare.
    We have a lot to do in this committee, and we don't want to 
just focus on the status quo or the stagnant quo. I want to 
compliment my colleague from Iowa because he has been bold and 
innovative and has already changed the paradigm over his work.
    We also joined together to include women in the protocols 
at NIH and then also helped change the protocols there, using 
the best of Western medicine. Now, we want to use the best of 
healthcare thinkers to know that when we do our reform that we 
are doing not only insurance reform, but we are doing 
healthcare reform and actually healthcare transformation.
    I look forward to hearing the witnesses. They have already 
made a major contribution. I will be able to say something 
complimentary about each one.
    But, Dr. Oz, you are already the surgeon general of the 
airwaves. You have done more to promote healthcare and sound 
living, and also we want to hear so much more about your 
HealthCorps, which is these wonderful, talented young people 
helping us achieve these healthy, what is it, healthy habitats 
and healthy people.
    Senator Harkin. Thank you, Senator Mikulski.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. I want to thank the co-chairs for holding 
this hearing and for their tremendous effort and work in 
healthcare and all of the other areas that this committee does. 
I think this committee has one of the biggest jurisdictions on 
the Hill, and we have been very productive at getting through 
those.
    I look forward to the testimony of today's hearing, and I 
want to also welcome Dr. Oz. I first met you in New York City 
at the time your first book came out and have been following 
those books and television and some other things. I am still a 
little surprised that people have you come into their home and 
clean out their refrigerator for them.
    [Laughter.]
    I can see where the advantage would be on that.
    I do have a full statement to submit for the record, but I 
primarily wanted to comment today that yesterday the President 
made a statement that he was going to have a $634 billion 
reserve for healthcare. I am on the Budget Committee. So, I 
know how the reserves go, and I know that isn't real money. It 
gives us some room to play with.
    I am a little disappointed that the figure was so precise 
without showing us exactly--it makes it sound like there is an 
exact plan out there. Of course, he promised us that he would 
let us work through a process, and that is what makes it 
bipartisan, when we can work together at the beginning. A 
number of us have been doing that in a number of different 
ways.
    I think that Senator Baucus kind of put out a white paper 
earlier that a lot of people have been working off of. Senator 
Wyden has had a plan. Everybody has had a plan. I have been 
busy collecting all of those plans so that we could put 
everything on the table and arrive at something that will take 
care of every American if we can get all of it done.
    I noticed that we do things comprehensively around here, 
and it gets weighted down by the parts that people don't like. 
I hope that we can put together pieces--large pieces--but 
pieces that will make it through the process and get things 
solved for people.
    I also, every time I come here, will be encouraging us to 
do roundtables. We really ought to have a roundtable on the 
Massachusetts plan and have a bunch of people in, that have 
been involved in that, that can tell us where it went right and 
where it went wrong. Because I can see that we are going to be 
fashioning things after a lot of those things.
    The reason I mention a roundtable, is when we do a hearing, 
one side gets to pick all the witnesses but one, and the other 
side picks the one. Both sides come to pick on each other.
    I prefer the roundtables where we invite in people that 
have actually done things in the field, and quite often, we 
have that. It is a joint invitation and with just a few 
questions that can kind of bring out what they have done, and 
then they discuss how their idea would work with someone else's 
idea. I think that really helps to expand our capability to 
make the right kind of decisions when the time comes instead of 
concentrating on clever questions.
    I thank you for doing this hearing and the other hearings 
that we have been doing this year. They are extremely helpful.
    [The prepared statement of Senator Enzi follows:]

                   Prepared Statement of Senator Enzi

    Good morning and thank you for joining us today. The HELP 
Committee has spent ample time conducting hearings to gather 
information about our healthcare system to answer questions 
about the best way to move forward on health care reform.
    Today we will learn about alternative ideas for keeping 
people healthy. Dr. Oz will discuss a holistic approach to our 
health and provide suggestions on how to engage more people in 
their own health care decisions.
    Before we begin I would like to comment on the process in 
which Congress will move forward on healthcare reform. I was 
told by Senator Tom Daschle in his confirmation hearing that 
healthcare reform would be a bipartisan effort. I have also 
heard from Senator Baucus on the Senate Finance Committee that 
he would like 80 votes for a healthcare reform package. I hope 
that other members of Congress will begin to echo their 
colleague's commitment to a bipartisan process for health care 
reform.
    Unfortunately, the HELP Committee has not been conducting 
bipartisan hearings, and as a result there has been less 
participation. Members of the committee need to come up with 
the hearing topics on health care reform together, and not 
conduct hearings that only interest a few.
    I also want to note my concerns about the President's 
budget blueprint, which came out today. $634 billion is a lot 
of money and a very precise number. The message the President 
has sent is concerning. His budget blueprint does not send a 
bipartisan message. A health care reform proposal pushed by the 
White House will undercut the will of Congress and I strongly 
encourage him to allow Congress to act first. I am not 
encouraged by the President's blueprint and hope he will echo 
his colleagues support for a bipartisan health care reform 
package in the future.
    Working together on a plan means agreeing where we want to 
go, and then being willing to take different paths to get 
there. Paving a highway and then dragging people down it is not 
bipartisanship. The bipartisan road is built together and it's 
built with action more than words.
    Today we will hear from individuals about ways in which we 
can improve the health of our Nation through ideas that require 
individuals to take personal responsibility for their actions 
and inactions. I look forward to hearing the testimonies and 
want to thank the witnesses for their time and dedication to 
improving the lives of others.
    Senator Harkin. Thank you very much, Senator Enzi.
    I see this hearing as sort of the beginning of a process, 
and I take your advice to heart that perhaps the second round 
ought to be some kind of roundtable discussions where we bring 
in more integrative practitioners.
    I can assure you, I know each one of these individuals who 
are here today, and they are all practitioners. These aren't 
people who are just sitting behind ivory towers some place. 
Every one of them are active practitioners.
    Senator Enzi. I wasn't referring specifically to this 
hearing.
    Senator Harkin. Oh, OK.
    Senator Enzi. Some of the others have been a little bit 
more focused on a particular direction that somebody wants to 
go, and we need to be examining a lot of different directions.
    Senator Mikulski. Colleagues, we vote at 10:30.
    Senator Harkin. Well, this is it. This is it.
    Dr. Oz, welcome. We have a vote at 10:30, so we will 
probably break and then come back right after that vote.

   STATEMENT OF MEHMET C. OZ, M.D., DIRECTOR, CARDIOVASCULAR 
    INSTITUTE AND COMPLEMENTARY MEDICINE PROGRAM, NEW YORK-
              PRESBYTERIAN HOSPITAL, NEW YORK, NY

    Dr. Oz. Well, I want to thank the Senators very much for 
allowing some of us to offer some insights on how to get more 
value for the money that we are already spending in healthcare.
    I am not going to talk about insurance. I am going to talk 
about the broader philosophy of the personal responsibility we 
each have. Tip O'Neill often quipped that all politics was 
local. I think all healthcare is personal. I am going to speak 
a bit about the smart patient movement and what we should be 
empowering Americans to be able to do.
    I was sent last fall by The Oprah Winfrey Show to look at 
places around the world where people live the longest and live 
the best. These are places like Sardinia and Costa Rica, Loma 
Linda in this country as well. What we learned in these 
countries where people have a four times greater chance of 
living to age 100 than they do in this country--think about 
that. Four times more chance of getting to age 100 in Costa 
Rica or Okinawa than in this Nation.
    We learned that the reason they are able to do it is 
because it is easy to do the right thing. It is easy to make 
the right decision.
    I did a show recently with Ms. Winfrey, where we 
recommended that folks eat 100 percent whole grains. One of the 
most common comments we got on the show was, ``We can't find 
100 percent whole grains where we live.'' I went out and 
started looking, and in many parts of this country, that is the 
case.
    How do you make it easier for folks to make those 
decisions? I think the complementary and alternative medicine 
movement has, in part, been about that--empowering people to 
take charge of their own health, and because they are doing 
that, they begin to play a more active role and they find 
paths, sometimes serpentine paths to health that they wouldn't 
have normally expected to run into.
    I started in this field not because I was interested in 
massage therapy, but because I was putting in these kinds of 
little heart pumps. This is a device that we use to support the 
heart of a person who is dying from heart failure. These people 
were just barely gripping the oppressiveness of life, about to 
fall into the chasm of death.
    I began to realize that they wanted more than just a pump 
that kept the blood moving forward. They wanted vitality. They 
wanted that more holistic approach. They began calling in their 
massage therapists, and they want to have aromatherapy around. 
Pretty soon, I was calling the social workers to see if we 
could have Reiki masters in the operating room.
    As the story sort of progressed, we created a complementary 
and alternative medicine program that was not designed to 
advocate for these therapies. It was designed to evaluate them.
    As we began to create that and I traveled around the world, 
I finally recognized what many of my colleagues were already 
talking about is the globalization of medicine. Taking 
therapies that have worked in other parts of the world and 
offering them as a possible solution to Americans who suffer 
similar ailments.
    We have global finance. We all know that from the current 
environment. We have global media. The books that we write, the 
Oprah show, they are in many different countries. We don't have 
global medicine. Medicine has remained remarkably provincial in 
many ways.
    With this in mind, I wanted to push us to think about what 
the smart patient movement is all about. We actually worked 
with the Joint Commission, which is the Nation's health/safety 
watchdog organization, to write books on this topic. This is 
one of them.
    These texts, that are given out at hospitals, are designed 
primarily to help people to understand what responsibility they 
have. Now the first question people ask, and this is true of 
complementary medicine, whether you are going to take bypass 
surgery or medical therapy for heart disease, it is all about 
being an insightful and inquisitive member of the healthcare 
team.
    The first question people ask is, ``My goodness, aren't I 
going to get shot if I put my hand up and ask about this 
alternative approach?'' You know what Senators, if you are the 
only one who puts your hand up, you might get labeled as the 
troublesome patient in room 21. But, if we create a movement 
and make it easy for people to access some of these therapies, 
it becomes the norm.
    I believe that if we can get about 10 percent of the 
population to shift the mindset, their responsibility that they 
perceive in this healthcare system, we can drive quality. 
Because if you are going to put an extra quarter in to go first 
class as a practitioner by bringing in an acupuncturist to your 
practice or understanding nutrition in a bit more sophisticated 
way and building a team to do that, you ought to get people to 
come to you because they value quality.
    We need to create a market mechanism, and I have a couple 
of suggestions of how we can do that. First, I think it is 
important that we allow people access to better information 
about what the healing options available to them are. The major 
problem we have in academic medicine right now is we are asking 
the wrong questions. Because the questions being asked in 
trials are generally funded by endeavors that can profit from 
the answer.
    So we ask you, is this a better tool, or is this a better 
tool? What we really want to ask you is, is this a better tool, 
or is nothing really needed for you to get better and allow the 
body to heal itself?
    Second, I think we need to have the information systems 
that will also help the healers, people like me. The 
information systems that we talk about don't just benefit the 
patients, they benefit the people who are using information to 
judge whether or not you can get better from one therapy or 
another, and they ought to incorporate many of these 
complementary and alternative medicine therapies.
    Third, we need a culture of wellness. By that, I mean, very 
specifically, we should not be tasking physicians necessarily 
with some of the chronic care issues that plague our Nation. I 
mean, we spend twice as much per capita on healthcare in this 
country than most European countries, in part, because we are 
almost twice as sick.
    We should have health extenders play an active role in this 
and the health coach movement that would allow people who have 
that care-giving personality, maybe they are social workers or 
they are physical therapists or, actually, they could come from 
the army of alternative medicine practitioners that are already 
out there.
    Let us create mechanisms to let this health coach movement 
prosper, move forth, and provide them as sources to patients. 
All of a sudden, these people become their health advocates, 
their health advisors to try to control the system.
    And fourth, and my final recommendation, is that we think 
about this ServiceNation movement that you are already 
debating. Why ServiceNation? Because when we make it the norm 
for an 18-year-old leaving high school to serve his country, he 
or she doesn't have to do it just through the military, they 
can serve by becoming members of organizations that actually 
serve the Nation by teaching, among other things, health.
    We have created a program called HealthCorps, which has 
spread quite quickly around the country. We are in seven 
different States. We touch about 15,000 different lives. The 
basic principle is this.
    Think of the Peace Corps, right? The Peace Corps, we took 
energetic, passionate kids who were just graduating from 
college, and we sent them all over the world as foreign policy 
advisors pretty much for this Nation because we learned a lot 
about those countries, but we put our best foot forward.
    Take those same energetic kids, harvest that American 
talent, and put them in schools around the Nation. It is 
inexpensive. It is scalable. We estimate that the cost is about 
$1 per year of life lived per child. What is really cool about 
it is we have young people advising young people. It is pure 
mentoring.
    Then what happens? You have got activists being created. 
You have got high school students who now think, my goodness, 
they taught me about how to eat, and they are giving me advice 
about physical activity. Now I am not getting fat anymore. It 
helps with the obesity epidemic.
    More importantly, you have taught me mental resilience. You 
have taught me how I can be in charge of my own body because if 
I can't be in charge of my own body, I can't change the world 
out there either.
    These kids become activists. They fight for changes in 
their communities. They will go to a local bodega and say, 
``You know what, we need to have 100 percent whole grains in 
our communities. If we don't have them, then people can't eat 
right. Let us make that change happen.''
    These are the kinds of changes that I think HealthCorps can 
afford, as we have done randomized trials to show efficacy. I 
am very passionate about it, as you can probably tell. I think 
it is a great way to build another generation of people who are 
savvy about health to do service learning and teach this Nation 
about health.
    By doing that, we create this complementary approach to 
holistic wellness that we have seen looking around the world 
that I started my conversation with in countries that really 
have great value for the healthcare they are offered.
    [The prepared statement of Dr. Oz follows:]
                 Prepared Statement of Mehmet Oz, M.D.
                           Executive Summary
    America must find new ways of addressing the poor health record and 
staggering health care expenditures gripping our country, especially in 
light of the growing ranks of uninsured people. We spend roughly twice 
as much per capita on healthcare than our counterparts in Europe, but 
do not appear to derive value for this investment. Part of the reason 
is that Americans are twice as sick as Europeans as a people because of 
our chronic disease burden. Since lifestyle choices drive 70 percent of 
the aging process, we should focus on what we put in our mouths (food 
and addictions), how we tune our engines (exercise and sleep) and how 
we cope with stress (community and psychological growth). A key 
solution is support for a Smart Patient movement that integrates 
complementary and alternative medical (CAM) approaches to conventional 
medical treatment. We can combine the best of modern American medical 
practices with alternative approaches to wellness and harvest the 
natural healing powers of our bodies.
    As Vice-Chair and Professor of Surgery at Columbia University and 
Director of the Heart Institute at New York Presbyterian, I'm in the 
operating room every week and have performed thousands of heart 
operations utilizing the most state-of-the-art equipment and innovative 
approaches of science to save lives. My specialty was mechanical heart 
pumps and transplantation and my patients were barely gripping the 
ledge of life. To survive, they needed a pump to replace their failing 
organ, but also wanted to return to a fulfilling life, so they 
introduced me to their ``other'' healers-hypnotherapists, massage 
therapists, spiritual healers, and energy experts like Reiki masters.
    I soon realized that CAM is really the globalization of medicine, a 
field which has remained remarkably provincial. The globalization of 
medicine mandates that we incorporate Eastern approaches like 
traditional Chinese and Ayurvedic healing practices into Western 
medicine.
    A major driver of chronic disease in this country is obesity and 
the increase in childhood obesity rates is twice as fast for adults. No 
single remedy will make America well. Instead, public/private 
partnerships will produce the most successful vehicles for educating 
and empowering children and families to make healthful decisions and 
value their bodies. With this in mind, 5 years ago, I founded 
HealthCorps www.healthcorps.org, an in-school peer mentoring program 
for teens that focuses on nutrition, fitness and mental resilience. It 
reflects the message of the ServiceNation initiative to make 
volunteerism part of mainstream American life and we hope to bring it 
to all 50 States by 2012. We've even proven benefits of the program in 
randomized trials.
    The HealthCorps model is fashioned after the Peace Corps and can be 
duplicated in other areas like broadening the reach to seniors of CAM 
and physical fitness approaches that are proven to reduce the burden of 
dementia and improve function. HealthCorps Coordinators, who are the 
heart of the program, are typically recent college graduates who defer 
graduate studies to participate in public service by leading fun daily 
seminars on practical life skills associated with integrative health.
    The mechanism whereby we can institutionalize the concept of 
``HealthCorps'' and take it quickly to all 50 States already exists at 
the Federal level--AmeriCorps. An AmeriCorps/HealthCorps partnership 
also represents investment in a broad nationwide movement. HealthCorps 
is strategically partnered with leading like-minded private and public 
initiatives such as The Tiger Woods Foundation, ServiceNation, the 
Center for Disease Control, and the David Lynch Foundation, among 
others.
    We need to support systems that empower our citizens to get 
personally involved in improving the health of our Nation. There is no 
free lunch in health; instead you need to act for yourself to gain the 
vitality you desire. Our leaders need to deliver this honest message 
which is why I support the WIN proposal outlined by Dr. Jonas that 
would create a White House office focused on lifestyle-based chronic 
disease prevention. And please remember that we cannot have a wealthy 
nation if we are not a healthy nation.
                                 ______
                                 
    I commend the committee for reaching out to find new ways of 
addressing the poor health record and staggering health care 
expenditures gripping our country, especially in light of the growing 
ranks of uninsured people caused by the economic turndown.
    We spend roughly twice as much per capita on healthcare than our 
counterparts in Europe, but do not appear to derive value for this 
investment. Part of the reason is that Americans are twice as sick as 
Europeans as a people because of our chronic disease burden.\1\ Since 
lifestyle choices drive 70 percent of the aging process, most experts 
agree that we should focus on what we put in our mouths (food and 
addictions), how we tune our engines (exercise and sleep) and how we 
cope with stress (community and psychological growth). A key solution 
is support for a Smart Patient movement that integrates complementary 
and alternative medical (CAM) approaches to conventional medical 
treatment. We can combine the best of modern American medical practices 
with alternative approaches to wellness and harvest the natural healing 
powers of our bodies. CAM is not just about extreme treatments for 
advanced disease when no other solutions are available. It is about 
taking a population that has gotten comfortable living with half of the 
energy and sense of physical well-being that they should have at their 
age and moving them up the spectrum to live at full vitality.
---------------------------------------------------------------------------
    \1\ Kenneth E. Thorpe, David H. Howard, Katya Galacionova, 
Differences in Disease Prevalence as a Source of the U.S.-European 
Health Care Spending Gap (Data Watch, October 2, 2007) 678-686.
---------------------------------------------------------------------------
    I saw this first hand when we traveled to the oldest populations on 
our planet for the Oprah Winfrey Show. Dan Beuttner helped us 
understand why the odds of living to age 100 with the vitality we 
desire was four times higher than the United States in places without 
advanced health care technology like Okinawa, Costa Rica, and Sardinia. 
These people live with simple habits like daily arduous physical 
activity, eating whole foods, and relying on local healing practices 
that are minimalistic yet effective. We also found a similar cluster of 
centenarians in our own country, Loma Linda, CA.
            complementary and alternative medical practices
    We can combine the best of modern American medical practices with 
alternative approaches to wellness and harvest the natural healing 
powers of our bodies. If successful, we can provide our population with 
the vitality that we crave. Please let me explain this vision by 
explaining how I got involved in the movement.
    As Vice-Chair and Professor of Surgery at Columbia University and 
Director of the Heart Institute at New York Presbyterian, I'm in the 
operating room every week and have performed thousands of heart 
operations utilizing the most state-of-the-art equipment and innovative 
approaches of science in order to save lives. I spent much of my life 
past the cutting edge as I operated on the bleeding edge of medicine. 
My specialty was mechanical heart pumps (See Appendix A--Visual of 
Mechanical Heart Pump) and transplantation and my patients were barely 
gripping the ledge of life as they pulled themselves up from the 
crevice of death. To survive, they needed a pump to replace their 
failing organ, but this was not enough. They also wanted to return to a 
fulfilling life, so they introduced me to their ``other'' healers-
hypnotherapists, massage therapists, spiritual healers, and even energy 
medicine experts like Reiki masters. Clearly these patients had not 
read the same books that I got in medical school.
    We began offering massage and meditation, and even audiotapes in 
the operating room with some internal resistance, but general support 
from a medical community that recognized that conventional medicine 
alone could not offer the robust, holistic approach that our patients 
deserved. We started a center where we paid salaries of complementary 
and alternative medical (CAM) practitioners to offer free services to 
all of our heart surgery patients. We had two goals. First, introduce 
patients to new powerful lifestyle approaches that they could do on 
their own after discharge. Second, evaluate rather than just advocate 
these unconventional approaches to see what works and spread the word 
by publishing in mainstream journals. We researched if we could reduce 
pain medications with hypnosis, if we could improve survival after 
heart procedures with prayer, and if we could alter memory with what 
patients hear during their operations. As we merged high-tech to low-
tech approaches, folks around the hospital started to notice, and so 
did the media as evidenced by this early piece in the New York Times 
Magazine.\2\
---------------------------------------------------------------------------
    \2\ Chip Brown, The Experiments of Dr. Oz (The New York Times 
Magazine) 21-23.
---------------------------------------------------------------------------
    My interest in incorporating these CAM techniques began to spread 
as I followed the literature and traveled overseas to perform heart 
surgery in China, visit medical facilities in Turkey and train in 
France. Foreign patients and practitioners had different expectations 
from their health care systems than Americans. In fact, I realized that 
CAM is really the globalization of medicine. My testimony today will be 
quickly available all over the world with other news from today. 
Financial services are clearly global, which is part of today's 
economic turmoil story. Medicine has remained remarkably provincial. 
The globalization of medicine mandates that we incorporate foreign 
approaches like traditional Chinese and Ayurvedic healing practices 
into Western medicine.
             globalization of integrative health treatments
    In fact, people are crying out for the opportunity to play a 
greater role in their own well-being. We need to take the experience of 
a few and make it the norm for all. What we are really speaking about 
is morphing the current sophisticated health care system into one that 
is continually audited and improved by Smart Patients. What we have 
built are remarkable highways that carry people towards health. But to 
create a superhighway that is safe, we need better driver's education. 
And we need Smart Patients to spread this approach throughout the 
system. We even wrote a YOU book with the Joint Commission, our 
Nation's health safety advocate, to serve as a metaphorical driver's 
education pamphlet. (See Appendix B for reference to You:The Smart 
Patient.) The book hit the New York Times best-seller list, 
demonstrating the voracious appetite that our population has for 
information if presented in an accessible fashion.
    So how do we provide a booster rocket for improving our 
population's awareness of complementary and alternative medical (CAM) 
and lifestyle solutions? First, we need to incorporate CAM into the 
conventional health care economy, including insurance company 
reimbursement when appropriate. This means we need simple means for 
credentialing all these practitioners and easier access to research 
money for unconventional therapies. CAM treatments often cannot afford 
major investments into proving their efficacy because the potential 
profits are limited. Ironically, the most cost-effective therapies are 
the most difficult to research for the very reason that our government 
and other payers desire them.
      healthcorps--a peer mentoring model for a healthier america
    Second, let's support the ServiceNation initiative that seeks to 
make volunteerism part of mainstream American life. Many of these 
volunteers could help spread health lifestyle information throughout 
our Nation, as we have proven through the HealthCorps 
www.healthcorps.org peer mentoring initiative in our Nation's high 
schools. I founded HealthCorps in 2003. (See Appendix C-HealthCorps 
Summary)
    Here was our rationale. The major driver of chronic disease in this 
country is obesity and the increase in childhood obesity rates is twice 
as fast as the adult rate. I am seeing this first hand as we have 
started operating on obese 25-year-olds with artery blockages. I have 
been invited to Department of Health and Human Services panels to 
brainstorm solutions and contend that no single remedy will make 
America well. Instead, public/private partnerships will produce the 
most successful vehicles for educating and empowering children and 
families to make healthful decisions and assume responsibility for the 
most valuable asset they'll ever inherit--their bodies.
    The HealthCorps model is fashioned after the Peace Corps and can be 
duplicated in other areas like broadening the reach to our seniors of 
CAM and physical fitness approaches that are proven to reduce the 
burden of dementia, as well as offer improved function.
    As you most likely know, children and teens like to make their own 
decisions and often reject the advice of parents and elders. 
HealthCorps Coordinators, who are the heart of the program, are 
typically recent college graduates who defer graduate studies to 
participate in public service. Our Coordinators represent a cross 
section of demographics, talent and achievement. Coordinators are 
assigned one school where they serve as a positive role model leading 
fun daily seminars on practical life skills associated with integrative 
health. They teach kids about nutrition and exercise and the tremendous 
power of positive thinking.
    The mental resilience portion of the curriculum is arguably the 
most important--especially in light of the disturbing rise in teenage 
suicide in this country. The ten-fold increase in depression that we 
have seen in young people since the 1950's is not a result of genes. It 
is most likely attributable to significant societal changes such as 
lessened sense of community, a lessened sense of social purpose greater 
than oneself, as well as a shrinking familial base of support. By 
empowering kids to take charge of their own bodies as well as effect 
change in their communities, we believe we can contribute to their 
sense of purpose, community and confidence.
    Our Coordinators serve as a nexus for school-wide and community 
health events and activities, such as helping to script local health 
policy and working with other wellness non-profits to execute large-
scale community health fairs. And the wonderful thing about service 
programs is that they not only influence those served, they influence 
the people serving, a new generation of doctors, health practitioners 
and future policymakers who disseminate a philosophy of integration.
                      private/public partnerships
    Instead of the expensive tests, procedures, medications and 
interventions that we now use to try to cure our Nation, the methods 
HealthCorps proposes are attainable, affordable and sustainable with a 
long-term substantial return on investment. The mechanism whereby we 
can institutionalize the concept of ``HealthCorps'' and take it quickly 
to all 50 States already exists at the Federal level--AmeriCorps.
    At a time when the job market is shrinking, young Americans have 
fewer choices after college. As an AmeriCorps program, HealthCorps 
could harness the power of thousands of amazing young people across the 
country to spread the message of integrative wellness and at the same 
time offer them a worthwhile job opportunity. HealthCorps can also 
partner with great Federal programs such as the National Association of 
Community Health Centers (``NACHC'') to prospect for high school 
graduates interested in health careers who might devote a couple of 
years to service prior to considering college.
    An AmeriCorps/HealthCorps partnership also represents investment in 
a broad nationwide movement. HealthCorps is strategically partnered 
with leading like-minded private and public initiatives such as The 
Tiger Woods Foundation, ServiceNation, the Center for Disease Control, 
the David Lynch Foundation, the International Health, Racquet and 
Sportsclub Association, Cleveland Clinic Initiatives, the Smart Choices 
Coalition, the Corporation for Public Broadcasting, the Human 
Neuroimaging Lab at Baylor College of Medicine, and the United 
Federation of Teachers (``UFT''), among others. HealthCorps also 
mobilizes a 20-member Advisory Board (which includes experts in CAM, 
conventional medicine, business and non-profits) to participate in 
programming and community outreach.
    I know that our public/private partnership is a good investment 
because science is substantiating our gains. In June, I will present 
the results of an independently conducted 2-year efficacy study funded 
by Affinity Health Plan. Results of the study showed significant 
benefits of HealthCorps on decisions made by students.
                               conclusion
    We need to create systems that empower our citizens to get 
personally involved in improving the health of our Nation. In fact, the 
most important contribution of CAM therapies is that frequently no one 
is giving you a pill or procedure or quick fix answer. There is no free 
lunch in health; instead you need to act for yourself to gain the 
vitality you desire. Our leaders need to deliver this honest message 
which is why I support the WIN proposal outlined by Dr. Jonas that 
would create a White House office focused on lifestyle-based chronic 
disease prevention. And please remember that we cannot have a wealthy 
nation if we are not a healthy nation. Thank you for your valuable 
time, Mr. Chairman and committee members.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

           Appendix C: Healthcorps Summary.--Program Summary
                    healthcorps responds to the need
    HealthCorps' is a proactive health movement that responds to the 
obesity crisis through school-based health education and peer 
mentoring, in addition to community outreach to underserved 
populations--mostly Hispanic and African-American as well as groups 
with lower than average educational levels. HealthCorps 
(www.healthcorps.org) was founded in 2003 by cardiac surgeon, Dr. 
Mehmet Oz.
    Along with educating students in healthy lifestyle principles, we 
extend our mission to their families and communities. Unlike the 
expensive tests, procedures, medications and interventions that we now 
use to cure our Nation, the methods we propose are attainable and much 
more affordable. Our goal is to shift the paradigm towards health and 
wellness now and for the future of our children.
                           problem statement
    Obesity in the United States has reached epidemic proportions, with 
more than 35 percent of Americans classified as obese and an additional 
30 percent as overweight. Obesity has been a steadily rising trend 
since the late 1970s. Experts now predict that, without an 
intervention, the majority of the country will be obese by 2012. 
Alarmingly, the steepest increase is in children and adolescents. 
Obesity is directly linked to high blood pressure, type 2 diabetes and 
atherosclerosis. In turn, these unhealthy conditions are the major 
cause of heart attacks, strokes and heart failure. We are now seeing 
cardiovascular disease in teenagers and the average age of first heart 
attacks has dropped by over 10 years in the overweight patient. Other 
morbid conditions linked to obesity are certain cancers and arthritis.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    There are many regional, ethnic, and economic divergences across 
the population of obese and overweight people in the United States. 
Hispanics are the most overweight, although obesity is the highest 
among African-Americans.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The American healthcare system is in crisis; unless we reverse the 
obesity epidemic, it threatens to exhaust the system's manpower and 
economic resources in caring for those suffering from diseases 
associated with obesity. To avoid these mostly preventable diseases, 
our Nation's medical emphasis must shift from illness to wellness. 
Healthcorps is a catalyst for that change.
                        the healthcorps program
    HealthCorps is a national service program with tax-exempt status 
under Section 501(c)(3) of the Internal Revenue Code. The 
groundbreaking educational program currently runs in 44 high schools in 
seven States (CA, FL, NJ, NY, OH, PA, TX). HealthCorps' strategic plan 
calls for implementation in 1,000 high schools in all 50 States by 
2012. The program impacts approximately 500 high school students per 
school per year.
    The HealthCorps in-school program shows teens practical life skills 
through fun, interactive seminars focused on the value and power of 
students' bodies and minds. Teens become educated consumers and health 
activists and are encouraged to develop positive behavioral shifts that 
enhance self-esteem.&
    HealthCorps is based on a peer-mentor model, which has been shown 
to improve in a range of areas the outcomes of littles, including their 
academic performance, attitudes, and behaviors. HealthCorps 
Coordinators are typically recent college graduates who defer medical 
school or graduate health program studies to participate in public 
service.
    Each Coordinator is assigned one school in which he or she lead 
seminars 5 days a week on fitness, nutrition and mental resilience. The 
seminars are taught through health or other academic classes or through 
after school clubs, as designated by the school principal. Seminar 
content is included in a 250-page curriculum and program guide 
developed by the HealthCorps Advisory Board.
    In addition, we plan to introduce initiatives--through associations 
with the Tiger Woods Foundation and the David Lynch Foundation--to 
enhance the mental resilience portion of the curriculum in each 
HealthCorps high school.
    HealthCorps' delivers its in-class curriculum to approximately 500 
students annually in each school. The students share some of the 
messaging with their friends and parents--thus increasing the reach to 
1,500 people per school. In 2009, we hope to launch an online distance 
learning program, which will most likely increase reach to an 
additional 1,000 people per school annually.
    HealthCorps extends its message beyond the four walls of the 
classroom in unique and far-reaching ways. First, each semester, the 
Coordinators host a community health fair--with typically about 2,000-
3,000 attendees. Second, through a program with Sirius XM Radio, 
HealthCorps Board Chairman, Dr. Mehmet Oz, periodically features 
lessons from the HealthCorps curriculum with his radio audience. In the 
coming year, Dr. Oz will continue to promote the HealthCorps curriculum 
to parents of students via the daily syndicated Dr. Oz Show, which 
launches in September 2009. These radio and television broadcasts will 
reach millions of American homes.
    In addition to driving HealthCorps student and community outreach, 
HealthCorps sponsorship represents an investment in a broad nationwide 
movement. HealthCorps is strategically partnered with leading private 
and public initiatives such as The Tiger Woods Foundation, 
ServiceNation, the Center for Disease Control's Alliance to make U.S. 
the Healthiest Nation, the David Lynch Foundation, the International 
Health, Racquet and Sportsclub Association, Cleveland Clinic 
Initiatives, the food industry's Smart Choices Coalition, National 
Association of Community Health Centers, Channel 13 and the United 
Federation of Teachers (UFT), among others.
                        organizational capacity
    The heart of HealthCorps is the Coordinator. As noted above, 
Coordinators are recent college graduates who have deferred medical 
school or graduate programs in health. At their assigned high school, 
they are full-time, salaried advocates for healthy lifestyles. 
Coordinators work with teachers before, during and after school to lead 
interactive workshops based on the HealthCorps curriculum. In addition, 
they serve as positive role models--mentors who help students form 
healthy attitudes, lifestyles and action plans.
    HealthCorps Coordinators, graduates of some of the most respected 
universities in the United States, represent a diverse cross section of 
talent and achievement. HealthCorps follows strict hiring guidelines 
for Coordinators and requires that all Coordinators undergo requisite 
school system background and fingerprinting checks prior to assignment. 
Many Coordinators will emerge as future leaders in medicine and public 
health policy.
    For the 44 available Coordinator positions this year, HealthCorps 
received over 300 applications. We believe that we will have no 
difficulty recruiting and selecting Coordinators to facilitate our 
expansion.
    The executive staff of HealthCorps consists of 10 full-time 
salaried employees based in New York City. The home office is 
responsible for the ongoing enhancement and evolution of the 
HealthCorps curriculum, Coordinator recruitment, relationships with and 
outreach to schools, community events and finance, marketing, and 
fundraising. The HealthCorps executive staff brings a wealth of public/
private partnership, managerial, financial as well as educational 
experience to the organization. As we grow, we anticipate adding a few 
positions--primarily in finance, Coordinator recruitment and training.
    A seven-member Board of Directors governs the organization. Members 
of the Board have expertise in finance, medicine, law, and 
entertainment.
    A twenty-member Advisory Board, which includes experts in health, 
medicine, business and non-profits, participates in the ongoing 
enrichment of the programming and community outreach. We recruit these 
dedicated professionals from the entertainment, marketing, consumer 
products, human resources, finance and education communities. A list of 
board members is available at http://www.health 
corps.net/boardofdirectors.jsp.
    HealthCorps' founder and Chairman, Dr. Mehmet Oz, is one of the 
world's leading cardiac surgeons as well as a best-selling author, and 
Health Expert on The Oprah Winfrey Show http://www.healthcorps.net/
droz.jsp. He presides over the Board of Directors and guides the 
organization and its program.
    At least 40 Celebrity Ambassadors--actors, musicians, athletes, 
authors--also volunteer their time to raise funds, generate media 
attention and build awareness for HealthCorps at community and 
fundraising events.
                                efficacy
    In June, Dr. Oz will present the results of an independently 
conducted 2-year efficacy study overseen by a methodologist from 
Cornell University and funded by Affinity Health Plan. The focus of the 
study was to quantify the impact of the HealthCorps program on a 
predominately Hispanic New York City intervention group. Results of the 
study found significant benefits of HealthCorps on three dimensions: 
(1) soda pop consumption decreases by 0.61 times per week; (2) 
participants are 36 percent more likely to report that they are more 
physically active; (3) participants score 10.7 percent higher on the 
test of health knowledge. (These estimates assume zero benefit for 
dropouts; excluding dropouts results in larger effect sizes.) The Palm 
Healthcare Foundation, the leading healthcare foundation in Palm Beach 
County, FL, is currently conducting an efficacy study in five Florida 
intervention schools. Results from this study are expected in 2010.
    The Baylor School of Medicine, Human Neuroimaging Lab is funding 
and launching a 6-month groundbreaking brain imaging efficacy study of 
the HealthCorps program in January 2009. Results from this study will 
be available by July 2009. HealthCorps will be seeking $1,500,000 in 
funding for the continuation of this study (to be overseen by Baylor 
through MRI lab strategic partners) over the course of the next 4 years 
in all HealthCorps States.
                                 budget
    HealthCorps' total operating budget for fiscal year 2009 is $4.5 
million. The New York City Council, through the Department of Health 
and Mental Hygiene, is funding $1,500,000 of HealthCorps programming in 
the current fiscal year (July 1 through June 30). In fiscal year 2009, 
The New Jersey Department of Health and Mental Hygiene is funding 
$225,000 of HealthCorps programming and New York State will be 
contributing $25,000. HealthCorps currently receives no Federal 
funding. Total funding is garnered through a combination of State, 
city, private foundations, corporate and individual contributions.
    Each HealthCorps school program costs approximately $75,000.
    HealthCorps projects it will be in 65 high schools in 12 States, 
including the District of Columbia (AZ, CA, DC, FL, GA, MS, NJ, NY, OH, 
PA, TN, TX) by fall 2009 (our fiscal year 2010).

    Senator Harkin. Whew. Oh, wow.
    [Laughter.]
    Dr. Oz. I had 5 minutes to deliver 4 years of work.
    Senator Harkin. Since it was Senator Mikulski who insisted 
that you be here and invited you, I want to turn to Senator 
Mikulski for questions first. Wow.
    Senator Mikulski. Well, Dr. Oz, thank you very much for 
that very powerful presentation, and we know we will hear from 
others who are well known to us in their work or well known.
    First of all, I am a social worker. I love to give case 
examples. I am going to give you a case example I think all too 
familiar with you and see how in your smart patient movement it 
would be different, and you could do that.
    Let us take someone who is admitted to a well-known, well-
established, well-respected hospital for heart disease. It 
could be for undiagnosed heart arrhythmia, or it could be for 
bypass. The medical intervention is brilliant--the appropriate 
diagnosis, the appropriate surgery.
    Then they are ready for discharge. They are given a bag of 
drugs, and it is usually in a bag. Told to take them, and it 
could be everything from the blood thinner to the beta blocker 
to all the things that they have to take and a little side 
thing for acid reflux and so on. They are told to come back, 
and then they are also told that no matter what you do, because 
it is heart disease, it is diet and exercise.
    They bring up somebody from the kitchen who gives you one 
sheet that says kind of fruits and kind of vegetables, scrub 
them well because you don't know what is on them. By the way, 
start an exercise program, even though you have been diagnosed 
with heart disease, and you are afraid to exercise. You are 
afraid to have sex. You are just afraid. You are afraid of the 
beginning of a very chronic and debilitating situation.
    They have had smart care, but when they leave, they are 
usually depressed as they walk out the door about what lies 
ahead. Or saddened by what they have and often gripped by fear. 
What would be different in your frame of reference that we 
should be pursuing?
    By the way, everything that I said is incentivized by the 
way we pay for it. We will pay for the drugs. We certainly pay 
for the care. Yet we have two goals. One for chronic illness 
not to see it progress, and also if you have had a significant 
acute care hospitalization, you want to prevent recidivism and 
coming back for either that or the consequences of something 
you have had.
    Dr. Oz. Senator Mikulski, as you know, we have lots of data 
to show that in exactly those situations, providing a broader 
holistic approach to the discharge process reduces re-
admissions and increases the long-term value of what they have 
received.
    We have a balkanized system. We all acknowledge that. With 
this balkanization, you also have reduction of trust in the 
system. When that happens, then you end up suffering because 
suffering is not just about pain. Suffering is lack of control 
over your destiny.
    The best solution for someone like this who is going home, 
I think, is found through some of the things that we are 
actively investigating. One are programs that allow people to 
take their health records with them. HealthVault has one that 
we are spearheading later this month at New York-Presbyterian 
Hospital, where I practice.
    That is built by Microsoft. Google is doing sort of the 
same thing. These programs are sort of like PayPal. You know, 
you are not giving them your medical record because you don't 
give PayPal--they are not buying the product for you. You just 
trust them to store the stuff so you can buy something on 
Amazon or eBay.
    These HealthVault programs will give you your medical 
records, because we will give them to your personal Web site to 
own, and when you go home and it is confusing about what 
medications you are supposed to be on, you will have this site 
that your pharmacist will use to give you the right 
medications. You will have them to show your loved ones who 
have to help you back to full recovery.
    You could use them to show to a massage therapist, for 
example, or physical therapist who is working with you, who is 
trying to make you better again, to achieve that health that 
you lost when you were admitted to the hospital with your 
cardiac ailment. That kind of a more robust approach that 
allows you to own the record and you to control where it goes 
also would allow you, if the reimbursement systems are 
effective, to be able to drive health through the system.
    Also this is the kind of place where HealthCorps plays a 
role because now if you have got a group of people in the 
community making it easier to do the right thing--I am going to 
come back to that. If there is no sidewalk in your 
neighborhood, you are not going to go walking outside. If you 
can't find leafy green vegetables and cruciferous vegetables 
that we know are important for the liver to detoxify things 
like medications, you are not going to buy them.
    We want these programs out there so we make it easy for you 
to make the right decision. That is partly the reason, by the 
way, that we have had such an earnest uptake by partners. The 
CDC is working with us on these issues, the National 
Association of Community Health Centers, the Tiger Woods 
Foundation, David Lynch Foundation. I mean, large endeavors 
that are parallel to us see this unifying approach to taking a 
generation that is normally not involved in this process and 
making them part of that foundation.
    I started off by paraphrasing Tip O'Neill. I don't think we 
can do this if we don't empower people to do these things in 
their homes because, ultimately, that is where the real 
decisions are made. When I tell you something on the Oprah 
show, don't eat junk food, that doesn't work unless you take 
that information when you hear it and tell others. That is 
where real communication happens in our society.
    Senator Mikulski. Well, I know my time is up, but if the 
Chairman would permit to just summarize. Under the scenario 
that I said, there would be the hospital admission. As one gets 
ready--and there would be a health record established. 
Technology will be our tool and our friend and help provide for 
the case management and the case follow-through.
    Then, as you are ready to be discharged, hopefully, with 
somebody who you love and cares about you, you will, first of 
all, learn about your prescriptions. That is an important part 
of staying well. You do need that medication to help you. You 
would not only learn what you are going to take, but even the 
sequence for taking it.
    I mean, I have heard stories where men--gals take it maybe 
one at a time. Guys might take all 15 pills at the same time, 
get the darned thing over with. You would learn what to take, 
the order, the sequencing.
    Then, as you leave, you might even have technology to 
monitor your heart to see what you can do for those first 2 
weeks home. You lowered the fear for activities of daily living 
and starting an exercise program.
    Then, as you hook up with your cardiologist and your 
primary care doc, you would be hooking up with other people in 
the community for additional nutritional help, for real 
exercise stuff, and so on. That would be the continuum. Am I 
correct in that?
    Dr. Oz. A hundred percent correct.
    Senator Mikulski. That is where the health coach comes in. 
Not somebody with a baseball cap going, ``Hoo-ha, hoo-ha.''
    [Laughter.]
    Someone who is actually saying this is what we need to help 
you comply with your regime, but these are the things that will 
make the difference that you can be in charge of. What you 
physically do, what you eat, how you take your medicine--you 
are the one in charge working with this great health team.
    It is not only a medical team, but it is a health team.
    Dr. Oz. It is the exact vision. I think what we need to 
push for most is that people on the front line who are living 
this, making this decision every day, appreciate that is a 
possibility and then demand it.
    We have to delight our customers in medicine. We have 
historically not treated our patients like customers. There is 
a special covenant that we have with our patients. You give us 
rights as doctors to do things that other people in society get 
arrested for, like opening your chest.
    That stated, I think we have the opportunity, if we make it 
the norm, that people will say, ``You know what, I know they do 
that down the street. How come you don't do that?'' That is 
what would drive the competitive forces of healthcare to 
creating better value in the system for each of us. It is not 
going to just be because we pay for things differently.
    Senator Mikulski. OK. I will come back, if we have time for 
a second round, on the HealthCorps.
    Thank you, Mr. Chairman.
    Senator Harkin. Senator Enzi.
    Senator Enzi. Thank you for all of your words of wisdom and 
the way that you are changing our culture from ``sick care'' to 
truly healthcare. I appreciate your comments about health 
records, and you have expanded them. We passed that out of this 
committee twice. We haven't been able to get the whole thing 
done yet. There is part of it in the stimulus package.
    You expand on that to the person--and we have talked about 
this, but we haven't included it, having the person have access 
to it themselves. That would make a tremendous difference in 
what Senator Mikulski was talking about, about people being 
able to actually read the sequence they are supposed to take 
things.
    You started out by saying there were three points, I think, 
and you gave us the first one, which was the health IT. I want 
to go back to the HealthCorps thing that you mentioned. I think 
you said you have that in seven States.
    How do you fund that, and how do you train them?
    Dr. Oz. HealthCorps volunteers, who we select from a large 
group of people who apply over the Web for the positions, are 
college graduates. We bring them to New York City, where the 
training center is. We put them up in dorms for 2 months. Just 
like the Peace Corps trains its volunteers, we give these kids 
education not just in health, but in how to teach.
    We have a several hundred-page syllabus of lesson plans. It 
is well vetted by folks who are professional educators, and 
they help these young, enthusiastic, passionate folks--as they 
go back into their schools--understand how to pass along this 
key information.
    Once the kids go back to their schools, and they are in New 
York and Pennsylvania and New Jersey and Florida and Texas and 
California. I mean, they are spread all over the country, Ohio. 
Once they go back to their home States and enter into the 
schools, we work with principals to figure out how we can best 
help the school.
    For example, in some schools, we will just teach the health 
class. We will take 1 day and go through the whole program, and 
we will teach. We will bring organs to the school from a local 
hospital and show kids what really happens inside your body 
when certain things happen. We will explain it in a hip and a 
little bit of an edgy way, with a little attitude, some of the 
things you can do, if you are a 15-year-old, to be healthier.
    Because if we just lecture you, if I gave the lecture with 
my calcified neuronal processes, kids won't want to hear that. 
I have tried that already. I failed with my own four kids. I 
think if we go in there with energetic kids who are 4 years 
older than the person they are talking to, it is a very 
different dialogue.
    We set the agenda of what is talked about, but in fairness, 
a lot of it is how you deliver the message. By doing it at 
lunchtime and after-school programs or together with teachers 
within the day, we have had huge and very successful uptake.
    In fact, the teachers unions are often very supportive of 
our endeavor because we supplement what they are doing. We 
don't move in there and try to take away positions or tasks 
that are currently being fulfilled by the members of their 
groups.
    Senator Enzi. I think I am going to switch directions 
completely here because one of the things that comes up at town 
meetings a lot is somebody that has had several operations, and 
they have several different specialists that are out there. 
Unless there is somebody from their family that is kind of 
coordinating that, things can go awry, and nobody has any 
responsibility for it.
    We place a lot of emphasis through incentives to having 
specialists rather than primary care and, as you are 
mentioning, kind of a primary care coordinator who wouldn't 
necessarily have to be the doctor, although we would probably 
get in a lot of trouble if we start talking about any other 
field.
    Are you running into that same thing, and is there a way 
that we can involve more of these people in doing this kind of 
coordination for people?
    Dr. Oz. It is probably the most straightforward way to 
improve the healthcare system is to build a culture of health 
advocates. Call them health coaches for now. I think frequently 
they probably should not be M.D.s. Not because doctors can't do 
it, but it is probably not what doctors are passionate about 
doing usually.
    I went to medical school because I was curious about the 
physiology of the heart. I liked the tension, the exhilaration 
of being in an operating room. If you put me in charge of 
managing hypertension in the chronic ailment, I probably 
wouldn't do it as well.
    Studies done on this topic have demonstrated that nurse 
practitioners will often manage chronic illnesses more 
effectively for that reason. They love doing it. That is what 
they get up in the morning thinking about.
    I think my brethren within medicine don't see that as a 
threat. It is a physician extender. You are helping me. I 
think, within the hospital care system, we are now beginning to 
use these models.
    In my hospital, New York-Presbyterian, my physician's 
assistant is the healthcare coordinator, not me. Because at 2 
p.m., when they have a problem with a test that hasn't been 
done on time or they don't quite know what the neurologist is 
going to say, I am in the operating room. So they can't get to 
me. It doesn't work for me to have that power base. I would 
rather delegate it to someone who I trust, train them to do it, 
and let them do a better job than I would do.
    I think the value of health coaches across the platform is 
that it is less difficult for people to train to be health 
coaches. People are passionate about doing that level of help 
can do it, and it takes advantage of a resource we have for the 
American public and a need that we have, this coordination of 
the healthcare system.
    Senator Enzi. My time just expired. I wish there was a lot 
more time because this is just such a tremendous resource.
    Senator Mikulski. We will be able to pick it up in the 
second panel, and if Dr. Oz has time to stay. As we said, there 
is an Institute of Medicine summit going on right this very 
minute to talk about this concept of integrative health, which 
was the hearing we kicked off on Monday, and the summit is 
going on.
    It is really a week-long conversation, and we will be 
getting the report of the summit so that we can talk about 
this.
    Dr. Oz, I want to come back to the conversation on 
HealthCorps, which we will draw the distinction to a health 
coach. To me, the health coach is someone where we will have an 
established body of knowledge and even a certain level of 
credentialing so we don't have quacks out there saying, ``I am 
your health coach,'' and all they want to do is push bottles of 
something.
    But the HealthCorps, we are going to be working on national 
service legislation. To me, the HealthCorps is really a very 
dynamic idea. Do you see the HealthCorps--you have established 
it. You, through a foundation, I believe. Is that correct?
    Dr. Oz. That is correct.
    Senator Mikulski. My question would be, would you see that 
as also part of national service, or should we do it the way, 
if I could use Teach America and AmeriCorps? Teach America, as 
you know, is such an outstanding organization, and now for its 
20-plus years of operation has really changed public education. 
Changed the lives of children in the classroom and have gone on 
to be reformers themselves.
    Then we have AmeriCorps that goes into classrooms, does 
tutoring and so on, but they are different than Teach America. 
Would you encourage us, as we do national service, to have some 
type of grassroots HealthCorps component to it? But you, 
meaning HealthCorps, as you have established it, keep on going 
the way Teach America has kept on going?
    We are trying to look at some of the public policy. Senator 
Enzi, you know it is something to really be thinking about in 
national service from everything from even how we use 
agricultural agents differently. You know we have in the 
Department of Agriculture, which Senator Harkin has guru 
status, we use agricultural agents to go out to talk to farmers 
about growing it.
    Maybe we need food extension agents to come into our 
communities to talk about food, and maybe we need a department 
of food?
    Dr. Oz. You want a hybrid approach. You want to have 
HealthCorps--by the way, HealthCorps is funded by public and 
private funds. It is a 501(c)(3). We collect money from folks 
who want to give back to the system voluntarily, but we also 
have support from the city of New York. We have support from 
other Government agencies and local States. I think that 
HealthCorps ideally would fit into AmeriCorps.
    The reason HealthCorps works is because it is a service-
learning model. By that I mean if we had the educators within 
AmeriCorps--so they are funded, they know that they have a 
long-term strategy and a tasking of what to do--and then the 
people they bring to do a lot of the change in communities are 
volunteers, it takes time and money to train volunteers to give 
their time back.
    I think that we can combine the two of them together, we 
have the perfect model. We are already working with 
ServiceNation. I feel very strongly about the things they are 
doing that are so valuable for this Nation.
    Let us make it easy for folks who want to give back by 
making the country healthier to do that, but to build an 
infrastructure within AmeriCorps or Teach for America, one of 
these programs that already has so much experience, that is 
already within the Federal jurisdiction.
    Senator Mikulski. Well, thank you, Doctor.
    We are going to temporarily recess because there is a vote 
going on. Senator Harkin will return to pick up the hearing. 
Don't go anywhere.
    He has already voted and on his way back. Could you, 
though, introduce your HealthCorps director?
    Dr. Oz. Sure. The whole HealthCorps team is here. We have 
got them lined up. Michelle Bouchard to my right.
    Senator Mikulski. OK. And Michelle--we will introduce 
others. When we have our national service hearing, we are going 
to ask Michelle to participate and really devote part of our 
national service hearing--because we are going to have public 
hearings, Senator Enzi, as you have so rightfully encouraged--
and we would like to hear your experience in a more in-depth 
way than we can go into today.
    The committee stands in temporary recess until Senator 
Harkin returns.
    Dr. Oz. Thank you.
    [Recessed.]
    Senator Harkin. Well, such is life around here with votes 
and all that kind of stuff. The committee will resume its 
sitting.
    I am going to use this break period to ask the other people 
to join us. It was just kind of an interesting arrangement. We 
have such learned and distinguished practitioners, as I 
mentioned to Senator Enzi, of alternative medicine, integrative 
medicine. I am going to ask them all to come up at this time.
    Dr. Mark Hyman, I just saw Dr. Hyman earlier. Dr. Andrew 
Weil, Andy and Dean Ornish. Dean, if you could join us? If all 
of you could come up. Good.
    I welcome you all here. I will wait until my colleagues get 
back for a more formal introduction. I thought I just might use 
this point just to finish or to ask a couple of questions of 
Dr. Oz before they come back.
    I guess some of this was covered a little bit while I was 
gone. I need to know more about this ServiceNation, about the 
HealthCorps model. You started this. There are already some 
integrated with AmeriCorps now?
    Dr. Oz. Well, we have spoken with AmeriCorps.
    We have spoken with Federal organizations. We work more 
with city programs, but we are working with a couple of 
elements of the Federal Government. The CDC has asked us to 
partner on some endeavors because childhood obesity is causing 
chronic disease. They have gotten involved in these endeavors.
    The National Association of Community Health Centers, also 
a group that is charged with, to a certain extent, bringing 
health into communities, has recognized HealthCorps as a 
potential ally. We have spoken with AmeriCorps because I think 
it is a logical place for the program to live.
    Right now, it is funded in part by private philanthropy, in 
part from city and State organizations that give us grants. We 
have some money coming through States from the Federal 
Government to support the program. It would make sense to take 
this model, as it grows, and we purposely, by the way, started 
and grew this outside the Government because we were advised to 
do that by people inside the Government.
    They said go out and do it, show that it works, get some 
data for us so we understand its efficacy and its costs. Then, 
when it makes sense, bring it back. Then if it is the right 
thing for the American people, we will adopt it.
    I think one of the beautiful things about this whole 
HealthCorps model is that it allows us to bring service into 
the equation. It allows us to help people who want to give back 
to our country to play that role. Whether it is getting 
involved and bringing farmer's markets into communities or 
playing an active role getting kids in the school to have 
physical fitness as part of what they think is part of their 
life.
    Senator Harkin. I guess that is what I was wondering about, 
training. I mean, what kind of training would they have to 
undergo before they could become a part of this HealthCorps?
    Dr. Oz. The training process is the exact same one that 
they use for the Peace Corps. We take these college graduates 
after they finish school, and we put them in a 2-month 
intensive program where we teach them not only about health, 
but also how to teach.
    After this 2-month period, they are put into schools, which 
we have already selected for them, where they have partners 
with local teachers and principals and understand the culture 
of the school. Then because they are embedded in there, like a 
mentor, they play an educational role that is very different 
from that of the teachers, and they will mold to whatever is 
needed by the school.
    The key for us is not just to let it end there. It is to 
teach high school kids so then they can go and teach middle 
school kids, or go home and audit their refrigerator, or get 
involved in opening the gym on the weekend so the kids can play 
sports.
    They can make a difference because they become activists. 
They want to be part of change, and we are teaching them how to 
do that.
    Senator Harkin. Well, I love the concept. I don't know, I 
need to know more about how we might expand on that in the 
future.
    One other thing, in your testimony, you support the WIN 
proposal outlined by Dr. Jonas that would create a White House 
office focused on lifestyle-based chronic disease prevention. 
Last year, along with several cosponsors, I introduced 
legislation to create a high-level task force on prevention and 
public health that would coordinate efforts among Federal 
departments.
    Now you mentioned earlier about if you don't have 
sidewalks, people don't walk. I tried in the last 
authorization, reauthorization of the highway bill to put a 
simple amendment in, Doctor. All it said was that if you 
receive Federal moneys for highways and streets and stuff like 
that, you had to incorporate in your planning--you just had to 
incorporate. I didn't say you had to do it.
    You just had to incorporate it in your planning, bike paths 
and walking paths. I lost that amendment. I am not going to 
lose it next time. We have got another reauthorization.
    But the idea being in the Department of Agriculture, this 
year we have the reauthorization of the child nutrition bill. 
We have got to do something about getting better food for our 
kids in school.
    This is a theme I want to be coming back to with you, Andy 
and Dean and Dr. Hyman. We have got to start thinking about our 
kids and in schools and what they are eating and the junk food 
and the vending machines and how you change that. And get whole 
grains and the other things in our schools.
    It is transportation, it is education in schools, it is 
Department of Agriculture. All of these things need to be 
coordinated. Again, I ask if you could expand on the role that 
you envision this office having, this office of lifestyle-based 
chronic disease prevention?
    Dr. Oz. Well, one of the reasons I am supportive of this 
initiative to put someone in charge of integrating these 
different health-touching divisions and departments that are 
currently in a silo mentality, often ignoring the health costs 
of their decisions, is because if one person is not in charge 
of it, if it becomes some additional task you throw at an 
individual who has got 15 other things to be graded on, it 
seems to fall through the cracks over and over again.
    Having one individual--and by the way, you could make a 
separate office. You could also empower the surgeon general to 
do this and make it their job description, as much as anything 
else, to make sure that transportation is talking to health and 
health is talking to education. So that elements of this 
cascade that you are so aware of, but many of us on the outside 
don't see, become force. Because it doesn't make any sense to 
have a community without a playground.
    I know the challenges you face in the agricultural 
committee. We have spoken about them on the show. It is 
difficult to envision how complex it must be if there is a 
health cost to these decisions that often gets ignored because 
no one is sort of on top of that as their primary task. I think 
unifying that and having that person reportable to you, to the 
Senate, to the White House would make it on the front burner.
    Senator Harkin. Well, I am going to go ahead and introduce 
the rest of the panel, and at least we can start. I assume my 
two people will be coming back very soon.
    I welcome all of you, and I will just go by the list--Dr. 
Mark Hyman, Dr. Dean Ornish, Dr. Andrew Weil.
    Dr. Mark Hyman, I will start with you first. Editor-in-
chief of Alternative Therapies in Health and Medicine, one of 
the most prestigious journals in the field of integrative 
medicine. Dr. Hyman is the medical editor of Natural Solutions. 
He is on the editorial board of Body and Soul and Integrative 
Medicine: A Clinician's Journal.
    Dr. Hyman collaborates with Harvard Medical School's Center 
for Complementary and Integrative Medicine and other leading 
medical schools. I don't need to introduce you any further than 
that because everyone knows who all of you are, as a matter of 
fact, around the country.
    I will say this, that all of your written testimonies will 
be made a part of the record in their entirety. I didn't 
mention that earlier, Dr. Oz. Perhaps if you could just 
summarize your testimony, Mark. Then we will move on then to 
Dr. Ornish and then to Dr. Weil.
    Welcome, Mark.

 STATEMENT OF MARK HYMAN, M.D., FOUNDER AND MEDICAL DIRECTOR, 
              THE ULTRAWELLNESS CENTER, LENOX, MA

    Dr. Hyman. Thank you. Thank you, Senator Harkin and 
committee, for this opportunity to share the dramatic changes 
in medical thinking and practice that must be the center of 
healthcare reform.
    Is solving the problems of reimbursement, improving 
delivery of care, implementing electronic medical records 
enough for successful healthcare reform? Is providing access to 
the uninsured enough to improve the health of our population? I 
don't think so.
    We must also change the content of care. We must move from 
19th to 21st century medicine.
    My name is Dr. Mark Hyman, and as a practicing functional 
medicine physician, I am on the front lines of a scientific 
medical revolution.
    You are all painfully aware of the problems on healthcare 
today. Today, I will provide effective solutions embedded in 
the stories of real patients.
    Cris Scoufos, a 40-year-old woman, came to see me with 5 
years of uncontrolled ulcerative colitis with bloody diarrhea, 
joint pain arthritis, cystic acne, which started after four 
rounds of antibiotics for respiratory infections. She was 
treated unsuccessfully at the Mayo Clinic with the most 
advanced, dangerous, and expensive immunosuppressive therapies.
    Just before returning to Mayo Clinic to start a new 
investigational drug, she saw me. We didn't treat her disease, 
but we optimized her function, her immune and digestive 
function, by eliminating the triggers of inflammation and 
supporting her digestive function with real food, nutrients, 
enzymes, and healthy bacteria.
    After just 6 weeks of treatment, she went back to the Mayo 
Clinic and was found to have a completely normal bowel. Her 
joint pain, fatigue, and cystic acne resolved completely by 
treating the upstream triggers instead of the downstream 
symptoms.
    Can we get to the solution for chronic disease with our 
current methods of diagnosis and treatment? I don't think so.
    Enclosed within my testimony is her e-mail to me shortly 
after her visit to Mayo Clinic. With permission, here is her 
before and her after photographs.
    My testimony will show that the current medical and 
scientific paradigm of acute care medicine has been unable to 
effectively address the epidemic of chronic disease and 
associated costs and that there is a new paradigm of systems or 
functional medicine, which addresses the fundamental underlying 
causes of chronic disease and can form the basis for a more 
effective model of medical education, practice, and research 
that, over time, will generate dramatic cost savings and 
improved health outcomes.
    Also that there are specific initiatives and strategies 
based on this new paradigm that can help quickly transform our 
sick care system into a healthcare system.
    Even if we get everything else right in healthcare reform, 
it won't matter unless we address the underlying causes of 
illness that drive both costs and the development of chronic 
disease. If we improve the wrong type of care, then we will 
simply be doing the wrong things better.
    We must change not only the way we do medicine, but the 
medicine we do. This new paradigm or functional medicine is a 
system of personalized, patient-centered care based on how our 
environment and lifestyle choices impact on our genes to create 
imbalances in our core biologic systems. Those imbalances show 
up as the signs and symptoms we call disease.
    It is the best solution for our healthcare crisis. The 
solution is not our current acute care model, which, though 
extremely effective for acute disease, leads to worse outcomes 
and higher costs when applied to chronic disease because it 
doesn't address why people are sick. Functional medicine is not 
a new specialty. It is not a new test or treatment or 
procedure, but a new operating system, a method of problem 
solving and thinking and processing complex clinical 
information.
    It is a fundamentally different way of thinking about the 
origins and the mechanisms of disease, and it encompasses all 
the tools of healing and medicine, both conventional and 
integrative. It provides a common language, a map, or GPS 
system for navigating through the puzzle of chronic illness.
    Let me show how this works with real people. At the 
University of Minnesota, Dr. Anne Kelly developed a model of 
care based on functional medicine called ``U Special Kids'' 
program. It was for the 5 percent of the sickest children with 
asthma, multiple medical conditions, who generated 60 percent 
of the costs, mostly from unplanned hospitalizations.
    In 1 year, the costs incurred by that population dropped 
from $4 million to $250,000, $50,000 per enrollee or a 16-fold 
reduction in cost. Yet the program was canceled in November 
2008 after 1 year because less than 10 percent of the high-
science, low-tech, high-touch approach was reimbursable.
    We cannot control costs by reducing access to effective 
programs. We must increase access to integrated healthcare 
teams that include a variety of health professionals, including 
health educators or coaches, all of whom are trained in the 
appropriate chronic disease model. Both the science and 
technology exist to utilize functional medicine for such teams 
on a wide scale.
    Now I also saw a little boy, Clayton Lampert, to illustrate 
another case. He was 12 years old, on Ritalin for severe ADD. 
He also had behavior problems, severe handwriting difficulties, 
as you can see here. He also had other unrelated symptoms--
asthma, stomach aches, headaches, anxiety, muscle cramps, 
frequent antibiotics, and infections.
    He had seen five specialists, on seven medications, and yet 
no one asked how was everything connected or how his diet of 
junk food and sugar made him sick. His immune system was 
activated, his digestive system not working, and he was 
nutritionally deficient. We simply restored his normal biologic 
function by removing the impediments to health and providing 
the ingredients necessary for optimal function.
    In 2 months, he returned without any physical or 
psychiatric symptoms, was off all his medications, and with 
permission, here is his handwriting sample before and 2 months 
after. You can see the changes, and it illustrates dramatic 
change in his functioning without necessarily occupational 
therapy or any other treatment, but simply by affecting his 
biological function.
    How many children suffer needlessly when we have the 
solutions to these problems? What is the social and financial 
cost of not changing the medicine we do?
    Now there are some key avenues for change and 
recommendations that I am going to make. There are three. Now 
while there are many questions still to be answered and 
research to be done, it is time to act. Based on the changes in 
the medical paradigm, I submit that public investment must be 
made in the following areas.
    No. 1, we must retool medical education and research to 
match the science of systems medicine. I recommend the 
immediate establishment of a sustainably funded institute for 
lifestyle and systems or functional medicine that would be the 
national center and prototype for the development of a scalable 
training program for medical schools, residencies, as well as 
postgraduate certification and training in functional medicine 
for existing practitioners as well as ancillary health 
professionals and health coaches.
    No. 2, I recommend the creation of functional medicine 
demonstration projects in Federally Funded Community Health 
Centers, with integrated healthcare teams focusing on treating 
chronic disease and providing education about lifestyle and 
wellness.
    And No. 3, I support the establishment of a White House
and/or congressional office for health and wellness to 
coordinate all efforts in this area, as detailed in the WIN 
proposal submitted by Dr. Wayne Jonas. I would be glad to 
provide the committee with more information at your request.
    Here is a white paper on 21st century medical education and 
practice that provides the blueprint for a new kind of 
medicine, which I will submit along with my testimony.
    Thank you.
    [The prepared statement of Dr. Hyman follows:]
                 Prepared Statement of Mark Hyman, M.D.
                           Executive Summary
     effective health care reform: addressing the drivers of costs 
                          and chronic disease
    <bullet> The current medical and scientific paradigm of acute care 
medicine has been unable to effectively address the epidemic of chronic 
disease and its associated costs.
    <bullet> There is a new paradigm which addresses the fundamental 
underlying causes of chronic disease, and can form the basis for a more 
effective model of medical education, practice, and research that over 
time will generate dramatic cost savings.
    <bullet> There are specific initiatives and strategies based on 
this new paradigm that can help transform our sick care system into a 
health care system.
         the right solution for the problem of chronic disease
    <bullet> This new paradigm is personalized, preventive, 
participatory, predictive, and patient centered. It is proactive rather 
than reactive. It is based on addressing the causes of disease and 
optimizing biologic function in the body's core physiologic systems, 
not only treating the symptoms.
    <bullet> It is based on systems biology or medicine. That model 
exists today, and is called Functional Medicine.
    <bullet> Functional Medicine is a system of personalized care, a 
new ``operating system'' that directly addresses how environment and 
lifestyle influence our genes to create imbalances in our core biologic 
systems that, over time, manifest as disease. It is this kind of 
medicine that is needed to create real successes in 21st century 
medicine.
    <bullet> Even if we get everything else right in health care 
reform, it won't matter unless we address the underlying causes of 
illness that drive both costs and the development of chronic disease.
           clinical examples: systems medicine in the clinic
    <bullet> Case examples of Functional Medicine in chronic disease in 
autoimmune, digestive, behavioral, and hormonal disorders illustrating 
the power and implications for transforming the quality of our health 
care and reducing the economic burden of chronic disease.
    <bullet> Report on pilot program for children using functional 
medicine showing a 16-fold reduction in costs from dramatically better 
health outcomes with integrated health care teams based on Functional 
Medicine.
                key avenues for change: recommendations
    1. Re-tooling medical education and research to match the science 
of systems medicine. This would involve funding the development of 
training programs in medical schools and residencies, and supporting 
initiatives for certification and training in functional medicine for 
existing practitioners through establishing a fully funded university-
affiliated Institute for Lifestyle and Systems Medicine.
    2. Creation of Functional Medicine demonstration projects in 
federally-funded community health centers, with integrated health care 
teams focusing on treating chronic disease and providing education 
about lifestyle and wellness. These would form the foundation for the 
development of clinical practice networks of Functional Medicine for 
education and research.
                                 ______
                                 
    Chairman Kennedy, Ranking Member Enzi and distinguished members of 
the committee, thank you for this opportunity to share the dramatic 
changes in medical thinking and practice that must be the central focus 
of health care reform. My name is Dr. Mark Hyman. I am a practicing 
physician and vice chair of the board of directors of the Institute for 
Functional Medicine. As a practicing functional medicine physician, I 
am on the front lines of a scientific medical revolution.
     effective health care reform: addressing the drivers of costs 
                          and chronic disease
    My testimony will show that:

    <bullet> The current medical and scientific paradigm of acute care 
medicine has been unable to effectively address the epidemic of chronic 
disease and its associated costs.
    <bullet> There is a new paradigm which addresses the fundamental 
underlying causes of chronic disease, and can form the basis for a more 
effective model of medical education, practice, and research that over 
time will generate dramatic cost savings and improved health outcomes.
    <bullet> There are specific initiatives and strategies based on 
this new paradigm that can help quickly transform our sick care system 
into a health care system.
    Even if we get everything else right in health care reform, it 
won't matter unless we address the underlying causes of illness that 
drive both costs and the development of chronic disease. This 
innovative approach to chronic disease cannot only prevent but also 
more effectively TREATS chronic disease.
    We must change not only the WAY we do medicine, but also the 
medicine we DO. We must improve not only financing and delivery of 
health care, but also our fundamental scientific approach to chronic 
disease--an epidemic that now affects 133 million Americans and 
accounts for 78 percent of health care costs.
    This way of doing medicine, or Functional Medicine, is a system of 
personalized, patient-centered care based on how our environment and 
lifestyle choices act on our genes to create imbalances in our core 
biologic systems. Those imbalances show up as the signs and symptoms we 
call disease.
    It is the best solution for our health care crisis. The solution is 
not our current acute care model, which though extremely effective for 
acute disease, leads to worse outcomes and higher costs when applied to 
chronic disease because it doesn't address WHY people are sick.
    This new paradigm is personalized, preventive, participatory, 
predictive, prospective, and patient-centered. It is proactive rather 
than reactive. It is based on addressing the causes of disease and 
optimizing biologic function in the body's core physiologic systems, 
not only treating the symptoms. It is based on systems biology or 
medicine. That model exists today, and is called Functional Medicine.
         the right solution for the problem of chronic disease
    Our current model of medicine is unsustainable because it cannot 
stem the rising tide of chronic disease. Relying only on reforms in 
access, financing, electronic records, malpractice, reduction in 
medical errors, coordination of care, and research on new drug 
therapies--while retaining the acute-care model--will be untenable. 
These reforms are necessary but not sufficient to avoid the collapse of 
our health care system that may soon mirror our current financial 
crisis. These reforms do not alter the fundamental approach to 
prevention and treatment. If we focus on improving the way we practice 
the medicine of the past, we will still have the medicine of the past. 
If we improve the wrong type of care, then we will simply be doing the 
wrong things better.
    Acute-care medicine is designed for acute illness, trauma, and end-
stage disease for which it is the best in the world. It is disease-, 
drug- and procedure-based. Our current medical education focuses on 
sickness rather than health; journals publish about disease management 
not causality. Disease-based acute care medicine is the WRONG model to 
address chronic illness, because it doesn't address WHY people are 
sick, or the underlying mechanisms and biologic causes. That is why we 
spend more than any other industrialized nation and are near the bottom 
of the list for all major health outcomes, and are witnessing a decline 
in life expectancy for the first time in history.
    Functional Medicine is not a new treatment, test, or procedure but 
a new ``operating system'' or method for problem solving and processing 
complex clinical information. It is a fundamentally different WAY OF 
THINKING about the origins and mechanisms of illness. It encompasses 
all the TOOLS of healing and medicine, both conventional and 
integrative. And it provides a common language, a map or GPS system for 
navigating through the puzzle of chronic illness. A growing coalition 
of practitioners, educators, and scientists is dedicated to advancing 
this model. We have introduced 20,000 physicians and health care 
providers to functional medicine since 1991, and we wrote the Textbook 
of Functional Medicine in 2005 to describe both the underlying science 
and the practical clinical strategies and tools that comprise this new 
model.
    We have begun a certification program in functional medicine and 
are building key educational programs for residencies throughout the 
country. We are partnering with Harvard in strategic research to 
document the extent and scope of practice as well as the efficacy of 
this model as a better roadmap for chronic disease.
    Through a scholarship program funded by one of my patients, we have 
trained over 50 academic faculty and fellows from major institutions 
who are part of the Consortium of Academic Health Centers for 
Integrative Medicine (funded by the Bravewell Collaborative) including 
Harvard, Yale, Duke, Johns Hopkins, USCF, and the University of 
Arizona. We are also collaborating with the American Academy of Family 
Practice and the American Dietetic Association. We collaborate and 
advance the foundational work of James Gordon, M.D. at the Center for 
Mind Body Medicine and Dean Ornish, M.D. at the Preventive Medicine 
Research Institute.
      clinical examples: systems/functional medicine in the clinic
    Let me illustrate how this works with real people.
A Pilot Program For Functional Medicine: Reducing Costs 16-Fold in Sick 
        Children
    At the University of Minnesota, Dr. Anne Kelly developed a model of 
care based on Functional Medicine called the U Special Kids program. It 
was for 5 percent of the sickest children who generated 60 percent of 
the total costs, mostly from unplanned hospitalizations. In 1 year, the 
costs incurred by that population dropped from $4 million to $250,000, 
or more than $50,000 per enrollee, or a 16-fold decrease in costs. Yet 
the program was cancelled in November 2008 after 1 year because less 
than 10 percent of the high-science, low-tech, and high-touch approach 
was reimbursable.
    We cannot control costs by reducing access to effective programs. 
We must increase access to integrated health care teams that include a 
variety of health professionals, all of whom are trained in the 
appropriate chronic disease model. Both the science and methodology 
exist to utilize functional medicine for such teams on a wide scale.
    Reform must also encompass re-structuring financing and financial 
incentives to prioritize health care, not just sick care. We cannot 
afford incremental change. The health of our Nation, our future 
generations, and the health of our economy depend on addressing the 
explosion of chronic disease and associated health care costs.
A Woman With Treatment Resistant Autoimmune Disease
    Cris Scoufos, a 40-year-old woman came to see me after 5 years of 
uncontrolled ulcerative colitis with bloody diarrhea, joint pain and 
cystic acne, which started after 4 rounds of antibiotics for 
respiratory infections. She was treated unsuccessfully at the Mayo 
Clinic with the most advanced, dangerous and expensive 
immunosuppressive therapies. Just before returning to Mayo to start a 
new investigational drug, she saw me. We simply eliminated common food 
sensitivities, treated yeast infections, and normalized the function of 
her digestive tract with probiotics, digestive enzymes, fish oil, and 
vitamin D. After just 6 weeks of treatment she went back to Mayo and 
was found to have a completely normal bowel, and her joint pain, 
fatigue, and cystic acne resolved by treating the upstream triggers 
instead of the downstream symptoms. We cannot get to the solution for 
chronic disease with our current methods of diagnosis and treatment.
    Here is her e-mail to me shortly after her visit to Mayo Clinic. 
Her before and after photos are attached.

    Dear Dr. Hyman: I am so thankful for all that you are helping me 
with. I prayed for God to guide me to someone who could show me how to 
properly care for my body so that I could heal and that the honor and 
glory would belong to Him. Instead of asking for God to just heal me, 
like I had for 4\1/2\ years, I asked for guidance on what I needed to 
do.
    After failing all conventional drug treatments I was told I would 
have to go into an investigational drug study next. My trip to Mayo 
Clinic had been planned and I was nervous about the choices I was going 
to have to make. My colonoscopy in April 2008 showed 45 cm of 
ulceration.
    The trip to see you the last week of August was planned in 1 week 
and everything fell together so easily. It seems like it was meant to 
be. I started following your recommendations right away, even though I 
haven't incorporated all of the supplements in yet, the change has been 
amazing.
    My colonoscopy at the Mayo Clinic in Rochester, MN was last Monday, 
October 13. My physician, Dr. Sandborn, who is highly regarded in the 
gastroenterology field as one of the best in the country, told me that 
there is no ulceration left in my large intestine and there was only 
some scarring. I have completely healed! It is amazing! I was still 
bleeding just 2 months ago and now I am completely healed. It has been 
a very long 5 years and I thought you would want to know just how much 
your help has made in my life. Thank you very much. You have been the 
instrument that God has sent into my life for healing.
            Unending blessings to you and your loved ones,
                                              Cris Scoufos.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

A Doctor With Autoimmune Arthritis
    A 57-year-old vascular surgeon was seen with debilitating 
autoimmune psoriatic arthritis that had been unsuccessfully treated 
with Humira, methotrexate, and NSAIDs; he also had migraines, reflux, 
constipation, and fatigue. He was symptom free and off all medications 
only 6 weeks after changing his diet, fixing nutritional deficiencies, 
and addressing imbalances in his digestive system, which is home to 
more than 70 percent of the immune system.
A Woman With Multiple Chronic Diseases
    A 46-year-old woman, having seen a dozen doctors over a dozen 
years, came to me with 29 different diagnoses, including depression, 
hypertension, obesity, polycystic ovarian syndrome, migraines, heavy 
uterine bleeding, asthma, sinusitis, irritable bowel syndrome, 
fibromyalgia, osteoarthritis and psoriasis. Each disease was treated 
with the best available conventional treatment. But she was still sick, 
despite nine medications.
    Of course, she didn't have 29 separate diseases. She had imbalances 
in a few core networks of physiologic function--digestive, immunologic, 
and hormonal--that gave rise to all her symptoms. The underlying cause 
of all her ``diseases'' was an autoimmune response to gluten, leading 
to autoimmune thyroid disease and severe vitamin D deficiency because 
of malabsorption. Six weeks after eliminating gluten, improving her 
diet, replacing thyroid hormone and vitamin D, her 29 diseases were 
completely gone, along with 21 pounds.
A Boy With Attention Deficit Disorder and Asthma and Allergies
    Clayton Lampert was a 12-year-old boy with severe attention deficit 
hyperactivity disorder, behavior problems, and poor school performance 
on Ritalin for years. He also had illegible handwriting or dysgraphia. 
He also had apparently ``unrelated'' problems of asthma, allergies, 
hives, stomach aches, headaches, insomnia, muscle cramps, and anxiety. 
He had a history of frequent infections and antibiotics. He had seen 
five specialists (lung, GI, allergist, psychiatrist and neurologist) 
and was on seven medications for allergies, asthma, pain, and ADHD. No 
one asked how everything was connected, or how his diet of junk food 
and sugar made him sick.
    His immune system was activated, his digestion not working and he 
was nutritionally deficient in zinc, omega 3 fats, magnesium and 
vitamin B6. We simply normalized his function by removing impediments 
to health (junk food diet, food sensitivities, overgrowth of yeast, and 
lead) and providing the ingredients necessary for optimal biologic 
function--whole foods diet, additional nutrients including B6, 
magnesium, zinc, omega 3 fats and probiotics. In 2 months he returned 
without any physical or psychiatric symptoms and was off all his 
medication. How many children suffer needlessly when we have the 
solutions to these problems? Here is his mother's e-mail to me about 
his progress. Below is his handwriting sample before and 2 months after 
treatment.

    Dear Dr. Hyman: We had a 504 meeting at Clayton's school this 
morning (where the teachers, school counselor, parents, and principal 
all get together to review ``the plan'' for kids with special 
educational needs--in Clayton's case prompted by the ADHD diagnosis). 
This was the first time in his entire schooling history that everything 
seems to be going well. The input from his teachers was that he is ``a 
different kid'' than they saw in the first half of the year and that 
they're amazed by the difference. The school nurse hasn't seen him 
since March (and he used to be in her office several times a week). The 
school psychologist said his social skills are very good, age 
appropriate, and that she sees no problems at all. She also noted that 
Clayton seems very proud of himself and his new health and that he's 
taking good ownership of all the changes in his diet. He even seems to 
be shrugging it off when the other kids at school tell him he's an 
``alien'' because he doesn't drink soda.
    This was just such a fantastic meeting and I wanted to pass along 
the good news and say, Thank You!

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Recovery From Dementia
    The power of this approach is that it can be often applied without 
the intervention of a trained professional. Below is the story of a 
woman's whose husband recovered from dementia by following the 
principles of Functional Medicine. This recovery was likely due to a 
reversible nutritional cause. Other causes of dementia, which is not a 
homogenous disease, may respond differently, however the social and 
economic impact of this method can no longer be ignored.

    Eight years ago, at the age of 42, I met and married the love of my 
life, Robert Foster. We both have felt that ``we'' were absolutely 
``meant to be together.'' Two years ago I began worrying whether or not 
the ``moments'' of forgetfulness meant the beginning of dreaded 
Alzheimer's disease. I began to educate myself obsessively, and came to 
the conclusion that the traditional route of pharmaceutical drugs was 
the wrong approach to combat this beast. I would not accept that the 
``only'' outcome was a horrible death sentence. My beloved husband's 
cognitive function took a sudden and alarming spiral downward this past 
fall. The formal diagnosis of ``Alzheimer's'' was no less 
heartbreaking, but I felt lucky to have had those 2 years to do the 
precious research and reading, where I was given the extraordinary gift 
of awareness and respect for Functional Medicine.
    Knowing instinctively that this was the only answer to the war we 
needed to fight--it was here that I sought help. I was made aware of 
Dr. Hyman by another Functional Medicine doctor a couple of years ago, 
and have followed his work and have read several of his books. Having a 
program to follow, was the answer to a prayer . . . literally. The 
actual ``turnaround'' has been so dramatic that I have been hesitant to 
share the results, not wanting to offer unwarranted ``hope'' to others, 
as it sounds ``too good to be true.'' I do not want this to sound like 
``hype''--or as the ``magic pill'' that cured Alzheimer's, but I do 
think it would be irresponsible not to share our astounding results.
    The bottom line--5 days after starting the program, my husband had 
gone from not being able to hold a thought, constantly misplacing any 
number of objects, repeating questions and thoughts, and not being able 
to drive (as he would get lost), to the normal functioning man I 
married. The ``comeback'' is NOT 100 percent--it IS over 90 percent. He 
is able to hold his concentration on a project for hours at a time. He 
is able to get into the car and run errands flawlessly. He carries out 
a conversation and relates to it hours or days later. He is able to 
recall telephone numbers and addresses. I have my husband back. I have 
no doubt the change in diet, addition of specific supplements, the 
detox program, and the addition of regular exercise, are responsible 
for these results. I pray that the miraculous results are multiplied a 
million times over, and others feel the joy and relief that I have had. 
Dr. Hyman--our eternal thanks and gratitude.
                key avenues for change: recommendations
    While there are many questions still to be answered, and research 
to be done, it is time to act. Based on the aforementioned 
considerations, I submit that public and private sector investment must 
be made in the following areas:

    1. Re-tooling medical education and research to match the science 
of systems medicine. I recommend the establishment of a sustainably 
funded university affiliated Institute for Lifestyle and Systems 
Medicine/Functional Medicine. This would be the national center and 
prototype for the development of training programs in medical schools, 
residencies, and postgraduate certification and training in Functional 
Medicine for existing practitioners and ancillary health professionals. 
Sixty-seven percent of the 250,000 primary care doctors are currently 
dissatisfied with medicine and 80 percent are seeking new ways to 
practice based on this emerging model of medicine. The goal should be 
20,000 fully trained practitioners in 5 years.
    2. Creation of Functional Medicine demonstration projects in 
federally-funded community health centers, with integrated health care 
teams focusing on treating chronic disease and providing education 
about lifestyle and wellness. These would form the foundation for the 
development of clinical practice networks of Functional Medicine for 
education and research.
    3. The establishment of a White House and/or Congressional Office 
for Health and Wellness to coordinate all efforts in this area as 
detailed in the WIN proposal submitted by Dr. Wayne Jonas.
                               conclusion
    Most chronic disease today is not necessary. While conventional 
medicine has been great for acute disease, Functional Medicine is the 
model for easing the heavy burden of chronic disease from which our 
society--indeed, the whole world--suffers today.
            Thank you.
                                          Mark Hyman, M.D.,
                                 Institute for Functional Medicine.

    Senator Harkin. Well, thank you very much, Dr. Hyman.
    Now, I will turn to Dr. Ornish. I am kind of embarrassed to 
try to introduce all of you. Since you are so famous anyway, I 
don't know what I can say.
    Dr. Dean Ornish, founder and president of the nonprofit 
Preventive Medicine Research Institute in California, clinical 
professor of medicine at the University of California--San 
Francisco.
    For over 30 years, Dr. Ornish has directed clinical 
research demonstrating, and I was witness to this in New York 
many years ago, for the first time that comprehensive lifestyle 
changes may begin to reverse--not just stop, but reverse even 
severe coronary heart disease without drugs or surgery.
    And as I said, I can list all the books that all of you 
have written and everything. But you are much better known than 
what I could add to here at this hearing.
    Dr. Ornish, again, welcome. Thank you for all that you have 
done, and please proceed.

  STATEMENT OF DR. DEAN ORNISH, M.D., FOUNDER AND PRESIDENT, 
     PREVENTIVE MEDICINE RESEARCH INSTITUTE, SAUSALITO, CA

    Dr. Ornish. Well, Senator, thank you for all you have done. 
I am very grateful to be here with such distinguished 
colleagues and the pioneering vision that you have shown. 
First, I want to thank you for what you have done and what you 
are doing.
    I just came from speaking at the summit on integrative 
medicine at the Institute of Medicine and the National Academy 
of Sciences. I think this represents a watershed event. I think 
the world is catching up with the kinds of things that you and 
I and my distinguished colleagues have been saying now for some 
time.
    As you have talked about very eloquently, our healthcare 
system is really a disease care system. We spent over $2 
trillion last year on medical care, but 95 cents out of every 
dollar has gone for treating disease after it has already 
occurred. It is not the most efficient way to spend our money.
    It turns out that just four diseases--heart disease, 
diabetes, breast or prostate cancer, and obesity--account for 
75 to 80 percent of all these costs, all of which are 
preventable and, as we have shown, even reversible simply by 
making simple changes in diet and lifestyle.
    If we want to make affordable healthcare, true healthcare 
available to the 45 million Americans who don't have it, then 
we need to address the more fundamental causes of illness 
rather than just literally or figuratively bypassing it.
    At the Institute of Medicine, I just showed a slide of 
doctors busily mopping up the floor around a sink that is 
overflowing, but nobody is turning off the faucet. That is the 
problem. The same problem keeps coming back again, or we get a 
new set of problems where we have painful choices.
    Many people tend to think of breakthroughs in medicine as 
being a new drug or a laser, something really high tech and 
expensive, and they have a hard time believing that these 
simple choices that we make in our lives each day can make such 
a powerful difference. But they do.
    In our studies for the last 32 years, we have used very 
high-tech, expensive, state-of-the-art measures to prove how 
powerful these very simple and low-tech and low-cost 
interventions can be. We have shown that, for example, you can 
reverse heart disease, as you mentioned earlier. We have also 
shown that we can reverse early prostate cancer and, by 
extension, breast cancer.
    We have shown that people with diabetes and high blood 
pressure and elevated cholesterol can often, under their 
doctor's supervision, get off of these medications that they 
are told that they have to take for the rest of their lives.
    It is like if you don't turn off the faucet, we give you 
all these mops to keep mopping up the floor. If we can treat 
the cause, your body has, on many cases, a remarkable capacity 
to begin healing itself and much more quickly than people had 
once realized if we turn off the faucet, if we treat the cause. 
These causes are largely the lifestyle choices that we make 
each day.
    Now as you know, heart and blood vessel diseases kill more 
Americans now almost in every country in the world each year 
than virtually everything else combined. Yet studies have shown 
that it is completely preventable today for 95 percent of 
people, knowing what we know now. We don't need to wait for a 
breakthrough. We just need to put into practice what we already 
know just by changing our lives.
    You can say, ``Well, how is heart disease generally 
treated?'' It is treated with things like angioplasties and 
stents and bypass surgery. Yet with all this talk about 
evidence-based medicine, what does the evidence really show? 
The randomized trials of angioplasty show that they don't, 
unless you are in the middle of having a heart attack, which 95 
percent of the people who get them are not, they don't prolong 
your life. They don't even prevent heart attacks.
    We spent $60 billion in this country last year for an 
intervention that is dangerous, invasive, expensive, and 
largely ineffective. Again, unless we have really severe heart 
disease, which most people that get bypass surgery don't--the 2 
percent to 3 percent of people who have left main disease or 
equivalent and left ventricular dysfunction--they don't prolong 
life either.
    You say, ``Well, they make your angina go away.'' We found 
over 90 to 95 percent reduction in the frequency of angina or 
chest pain in weeks just by changing lifestyle. It is dramatic, 
and people who literally are riding a wheelchair around Wal-
Mart or can't get to their mailbox or can't make love with 
their wife, you know, within weeks are generally pain free.
    That is why I am so passionate about doing this work. I 
have seen this over and over again. These approaches are not 
only medically effective, they are usually cost-effective. We 
have done three demonstration projects, as you know, many of 
which you have helped us with.
    One of which was we have trained, through our nonprofit 
institute, hospitals throughout the country, and we have 
trained now tens of thousands of people in this program since 
1983. Because I thought if we just did good science, that would 
change medical practice. Then I realized that was naive. It 
wasn't enough to change science. We had to change 
reimbursement.
    The first demonstration we did with Mutual of Omaha. We 
found that most of the people who were told they needed a 
bypass or angioplasty were able to safely avoid it by changing 
lifestyle, and they saved $30,000 per patient in the first 
year.
    The second study was done with Highmark Blue Cross Blue 
Shield of Pennsylvania. We found that compared to a matched 
control group that they cut their costs in half in the first 
year and by an additional 20 to 30 percent in subsequent years, 
again just by changing lifestyle.
    We have developed--like Dr. Oz has developed his healthcare 
model, which is beautiful and inspiring--we have developed a 
model that works in hospital. We have learned how to train 
teams of people, as Senator Mikulski was talking about, not 
only just doctors, but nurses, social workers, clinical 
psychologist, yoga teachers, exercise physiologists, registered 
dieticians.
    They all work together in a team approach, where the doctor 
is the quarterback, but he or she doesn't have to spend as much 
time as working with these other people, as Mehmet was talking 
about. We found that it works.
    We have done a demonstration project with Medicare that you 
helped us with and Senator Mikulski helped us with. It took us 
14 years to finally get Medicare to cover this, but they are 
now paying for interventions like this, which we are now and 
others are training people in how to do this.
    We have a model that works. It works because it is based on 
joy of living, rather than fear of dying. It is medically 
effective, and it is cost-effective, and we want to get it out 
to Americans at a time when the limitations of high-tech 
medicine are becoming so clear.
    The power of these very simple and low-tech and low-cost 
interventions can transform people's lives for the better, save 
tens of thousands of dollars in the first year, and provide a 
new model for healthcare that is both more caring and 
compassionate as well as more cost-effective and competent.
    Thank you.
    [The prepared statement of Dr. Ornish follows:]
                Prepared Statement of Dean Ornish, M.D.
                           Executive Summary
    Our ``health-care system'' is primarily a disease-care system. Last 
year, $2.1 trillion were spent in this country on medical care, or 16.5 
percent of the gross national product, and 95 cents of every dollar 
were spent to treat disease after it had already occurred. Heart 
disease, diabetes, prostate/breast cancer, and obesity account for 75 
percent of health care costs, and yet these are largely preventable and 
even reversible by an integrative medicine program of comprehensive 
lifestyle changes.
    If we want to make affordable health care available to the 45 
million Americans who do not have health insurance, then we need to 
address the fundamental causes of illness, and provide incentives for 
healthy ways of living rather than reimbursing only drugs and surgery.
    Many people tend to think of breakthroughs in medicine as a new 
drug, laser, or high-tech surgical procedure. They often have a hard 
time believing that the simple choices that we make in our lifestyle--
what we eat, how we respond to stress, whether or not we smoke 
cigarettes, how much exercise we get, and the quality of our 
relationships and social support--can be as powerful as drugs and 
surgery, but they often are. Often, even better.
    We used high-tech, state-of-the-art measures to prove the power of 
simple, low-tech, and low-cost interventions. We showed that 
integrative medicine approaches may stop or even reverse the 
progression of coronary heart disease, diabetes, hypertension, obesity, 
hypercholesterolemia, and other chronic conditions. We also published 
the first randomized controlled trial showing that these lifestyle 
changes may slow, stop, or even reverse the progression of prostate 
cancer, which may affect breast cancer as well.
    Our latest research shows that changing lifestyle changes our genes 
in only 3 months--turning on hundreds of genes that prevent disease and 
turning off genes and turning off oncogenes associated with breast 
cancer and prostate cancer as well as genes that cause heart disease, 
oxidative stress, and inflammation. We also found that these lifestyle 
changes increase telomerase, the enzyme that lengthens telomeres, the 
ends of our chromosomes that control how long we live. Even drugs have 
not been shown to do this.
    The choices are especially clear in cardiology. In 2006, 1.3 
million coronary angioplasty procedures were performed at an average 
cost of $48,399 each, more than $60 billion; and 448,000 coronary 
bypass operations were performed at a cost of $99,743 each, more than 
$44 billion--i.e., more than $100 billion for these two operations. 
Despite these costs, angioplasties and stents do not prolong life or 
even prevent heart attacks in stable patients (i.e., 95 percent of 
those who receive them). Coronary bypass surgery prolongs life in less 
than 2-3 percent of patients who receive it. Studies have shown that 
changing lifestyle could prevent at least 90 percent of all heart 
disease. Thus, the disease that accounts for more premature deaths and 
costs Americans more than any other illness is almost completely 
preventable, and even reversible, simply by changing lifestyle.
    Finally, it's worth pointing out that what's good for your personal 
health is good for the planet's health; what's personally sustainable 
is globally sustainable. For example, eating a diet high in red meat 
increases the risk of heart disease and many forms of cancer. It also 
increases global warming: livestock cause more global warming than all 
forms of transportation combined due to methane production, which is 21 
times more powerful a greenhouse gas than carbon dioxide.
    As Senator Harkin said, ``To date, prevention and public health 
have been the missing pieces in the national conversation about health 
care reform. It's time to make them the centerpiece of that 
conversation. Not an asterisk. Not a footnote. But the centerpiece of 
health care reform.''
                                 ______
                                 
    Chairman Kennedy, Ranking Member Enzi, Senator Harkin, Senator 
Mikulski, distinguished colleagues--thank you very much for the 
privilege of being here today. My name is Dr. Dean Ornish, founder and 
president of the non-profit Preventive Medicine Research Institute and 
Clinical Professor of Medicine at the School of Medicine, University of 
California, San Francisco (UCSF). I appreciate the opportunity to 
appear today before this committee.
    I just came from speaking at the ``Summit on Integrative Medicine 
and the Health of the Public'' convened by the Institute of Medicine of 
the National Academy of Sciences and the Bravewell Collaborative. This 
represents a watershed event in recognizing the power of integrative 
medicine and the synergy of systems approaches in enhancing health and 
preventing illness.
    The theme of my presentation is this: if we want to make affordable 
health care available to the 45 million Americans who do not have 
health insurance, then we need to address the fundamental causes of 
health and illness, and provide incentives for healthy ways of living 
rather than reimbursing only drugs and surgery. Otherwise, the 
Congressional Budget Office indicated last week that this number is 
likely to rise to 54 million in the next 10 years, if not before.
    President Barack Obama and Senator Harkin understand this. As 
Senator Harkin recently said, ``We don't have a health care system in 
America; we have a sick care system. The problem is that this current 
system is all about patching things up after the fact. We spend untold 
hundreds of billions on pills, surgery, hospitalization, and 
disability. But we spend peanuts--about 3 percent of our health-care 
dollars--for prevention.''
    Last year, $2.1 trillion were spent in this country on medical 
care, or 16.5 percent of the gross national product, and 95 cents of 
every dollar were spent to treat disease after it had already occurred. 
Heart disease, diabetes, prostate/breast cancer, and obesity account 
for 75 percent of these health care costs, and yet these are largely 
preventable and even reversible by changing diet and lifestyle.
    Our research, and the work of others, have shown that our bodies 
have a remarkable capacity to begin healing, and much more quickly than 
we had once realized, if we address the lifestyle factors that often 
cause these chronic diseases. Medicine today focuses primarily on drugs 
and surgery, genes and germs, microbes and molecules, but we are so 
much more than that.
    For the past 32 years, I have directed a series of research studies 
showing that changes in diet and lifestyle can make such a powerful 
difference in our health & well-being, and how quickly these changes 
may occur, and how dynamic these mechanisms can be.
    Many people tend to think of breakthroughs in medicine as a new 
drug, laser, or high-tech surgical procedure. They often have a hard 
time believing that the simple choices that we make in our lifestyle--
what we eat, how we respond to stress, whether or not we smoke 
cigarettes, how much exercise we get, and the quality of our 
relationships and social support--can be as powerful as drugs and 
surgery, but they often are. Often, even better.
    We used high-tech, state-of-the-art measures to prove the power of 
simple, low-tech, and low-cost interventions. We showed that 
integrative medicine approaches may stop or even reverse the 
progression of coronary heart disease, diabetes, hypertension, obesity, 
hypercholesterolemia, and other chronic conditions. Four years ago, we 
published the first randomized controlled trial showing that these 
lifestyle changes may slow, stop, or even reverse the progression of 
prostate cancer, which may affect breast cancer as well.
    In our randomized controlled trials, published in the Journal of 
the American Medical Association, The Lancet, and other major medical 
and scientific journals, we found that 99 percent of people with severe 
coronary heart disease were able to stop or reverse it by making 
comprehensive lifestyle changes, without drugs or surgery. There was 
some reversal of coronary atherosclerosis after 1 year and even more 
improvement after 5 years, and there were 2.5 times fewer cardiac 
events. Most of the patients with severe angina (chest pain) became 
pain-free within only a few weeks, and quality of life improved 
dramatically.
    In June of last year, the Proceedings of the National Academy of 
Sciences published our newest study showing, for the first time, 
changing our lifestyle changes our genes. We found that improved 
nutrition, stress management techniques, walking, and psychosocial 
support changed the expression of over 500 genes in men with early-
stage prostate cancer. We found that oncogenes associated with breast 
cancer and prostate cancer as well as genes that cause heart disease, 
oxidative stress, and inflammation were downregulated or ``turned off 
'' whereas protective genes were upregulated or ``turned on.''
    In September, we published a study in The Lancet Oncology showing 
that these integrative medicine changes increased telomerase, the 
enzyme that lengthens telomeres, which are the ends of our chromosomes 
that control how long we live. We found that telomerase, and thus 
telomere length, increased by almost 30 percent in only 3 months. Even 
drugs have not been shown to do this.
    These findings are capturing the imaginations of many people. 
Often, people believe, ``Oh, it's all in my genes, there's not much I 
can do.'' Now, we understand how dynamic these mechanisms are, even on 
a genetic level. These findings are giving many people new hope and new 
choices.
    Incentives are often perverse. For example, insurance companies pay 
more than $30,000 to amputate a diabetic foot even though most 
amputations are preventable by scrupulous foot care which is usually 
not covered by insurance. A RAND study projected nearly $81 billion in 
annual national health expenditure savings due to prevention and 
disease management programs.&
    These choices are especially clear in cardiology. In 2006, for 
example, according to the American Heart Association, 1.3 million 
coronary angioplasty procedures were performed at an average cost of 
$48,399 each, or more than $60 billion; and 448,000 coronary bypass 
operations were performed at a cost of $99,743 each, or more than $44 
billion. In other words, Americans spent more than $100 billion in 2006 
for these two procedures alone.
    Despite these costs, a randomized controlled trial published in 
April 2007 in The New England Journal of Medicine found that 
angioplasties and stents do not prolong life or even prevent heart 
attacks in stable patients (i.e., 95 percent of those who receive 
them). Coronary bypass surgery prolongs life in less than 2-3 percent 
of patients who receive it, those with the most severe disease.
    In contrast, the INTERHEART study, published in September 2004 in 
The Lancet, followed 30,000 men and women on six continents and found 
that changing lifestyle could prevent at least 90 percent of all heart 
disease.
    That bears repeating: The disease that accounts for more premature 
deaths and costs Americans more than any other illness is almost 
completely preventable simply by changing diet and lifestyle. The same 
lifestyle changes that can prevent or even reverse heart disease also 
help prevent or reverse many other chronic diseases as well. The only 
side-effects are good ones.
    So, Medicare and other insurers and individuals pay billions for 
surgical procedures like angioplasty and bypass surgery that are 
usually dangerous, invasive, expensive and largely ineffective. Yet 
they pay very little--if any money at all--for integrative medicine 
approaches that have been proven to reverse and prevent most chronic 
diseases that account for at least 75 percent of health-care costs.
    When I lecture, I often begin by showing a slide of doctors busily 
mopping up the floor around an overflowing sink, but no one is turning 
off the faucet. Similarly, Dr. Denis Burkitt (who discovered Burkitt's 
lymphoma) once described that paying for ambulances and a hospital at 
the base of a cliff is not as smart as building a fence at the top to 
keep cars from falling off.
    It's important to treat not only the problem but also its 
underlying causes. Otherwise, the same problem often recurs (for 
example, bypass grafts or angioplastied arteries often clog up again), 
a new set of problems may occur (such as side-effects from 
medications), or there may be painful choices.
    President Obama's health plan states, ``This nation is facing a 
true epidemic of chronic disease. An increasing number of Americans are 
suffering and dying needlessly from diseases such as obesity, diabetes, 
heart disease, asthma and HIV/AIDS, all of which can be delayed in 
onset if not prevented entirely.'' Senator Ron Wyden has sponsored the 
Healthy Americans Act, which emphasizes prevention and has bipartisan 
support.
    For example, most people can significantly lower their cholesterol 
levels and blood pressure by making comprehensive lifestyle changes 
that are free rather than by taking a lifetime of drugs that are 
costly.
    In our research, we found that comprehensive lifestyle changes 
caused a 40 percent average reduction in harmful LDL-cholesterol levels 
in men and women during the course of a year without drugs. This 
randomized controlled trial was published in the Journal of the 
American Medical Association in 1998. Last year, over $20 billion were 
spent in this country on cholesterol-lowering drugs such as Lipitor, so 
the potential cost savings would be very significant if more people 
made comprehensive lifestyle changes in lieu of drugs. While 
cholesterol-lowering drugs have clear therapeutic benefits, patients 
should also be offered more intensive diet and lifestyle interventions 
that have been proven to lower LDL-cholesterol by approximately the 
same amount at a fraction of the costs and with similar therapeutic 
benefits.&
    Cost savings can be greatest and can be seen most quickly in those 
who are at highest risk or who have chronic diseases. For example, my 
colleagues and I at the non-profit Preventive Medicine Research 
Institute conducted a demonstration project in collaboration with eight 
hospitals to determine if comprehensive lifestyle changes could be a 
safe and effective alternative to bypass surgery or angioplasty in 
those who were eligible to receive it.
    After 1 year, almost 80 percent of people were able to safely avoid 
heart surgery or angioplasty, and Mutual of Omaha calculated saving 
almost $30,000 per patient in the first year. This study was published 
in the American Journal of Cardiology. In a second demonstration 
project with Highmark Blue Cross Blue Shield, these comprehensive 
lifestyle changes reduced total health care costs in those with 
coronary heart disease by 50 percent after only 1 year and by an 
additional 20-30 percent when compared to a matched control group.
    In our third demonstration project of more than 2,000 patients 
enrolled in our lifestyle intervention at 22 hospital sites, we showed 
dramatic improvements in angina in more than 83 percent of patients 
reporting angina symptoms, and most became completely pain-free. This 
study was also published in the American Journal of Cardiology. These 
reductions are even greater than those achieved by coronary bypass 
surgery or angioplasty/stents. Direct health care costs of angina alone 
cost over $1 million per person over a lifetime. Clearly, if relatively 
simple lifestyle changes achieve similar or even greater reductions in 
angina pain than costly invasive surgical procedures, the potential 
savings are enormous.
    An ounce of prevention really is worth a pound of cure.
    The rapid growth of companies offering personalized genetic testing 
such as Navigenics, 23&Me, and deCODE Genetics, makes it possible to 
identify people who are at highest risk for chronic disease and to 
tailor prevention prescriptions to those who most need it. Finding out 
that you are at higher risk for illnesses such as heart disease or 
diabetes is a powerful motivator for making comprehensive lifestyle 
changes. Also, those at high risk are more likely to show cost savings 
from prevention.
    Prevention is also cost-effective in healthier people, although the 
cost savings per person are not as high. For example, 3 years ago, 
Steve Burd (CEO of Safeway) realized that health care costs for his 
employees were exceeding Safeway's net income--clearly, not 
sustainable. We discussed redesigning the corporate health plan for his 
employees in ways that emphasized prevention and wellness, provided 
incentives for healthful behaviors, and paid 100 percent of the costs 
of preventive care.
    Overall health care costs decreased by 15 percent in the first year 
and have remained flat since then. Many other worksite wellness 
programs have shown cost savings as well as a happier and more 
productive workforce. This approach is bringing together Democrats and 
Republicans, labor and management.
    In each of these studies, significant savings occurred in the first 
year--medically effective and cost-effective. Why? Because there is a 
growing body of scientific evidence showing how much more dynamic our 
bodies are than had previously been believed.
    Many patients say that there is no point in giving up something 
that they enjoy unless they get something back that's even better--not 
years later, but weeks later. Then, the choices become clearer and, for 
many patients, worth making. They often experience that something 
beneficial and meaningful is quickly happening.
    The benefit of feeling better quickly is a powerful motivator and 
reframes therapeutic goals from prevention or risk factor modification 
to improvement in the quality of life. Concepts such as ``risk factor 
modification'' and ``prevention'' are often considered boring and they 
may not initiate or sustain the levels of motivation needed to make and 
maintain comprehensive lifestyle changes.
    In our experience, it is not enough to focus only on patient 
behaviors such as diet and exercise; we often need to work at a deeper 
level. Depression, loneliness, and lack of social support are also 
epidemic in our culture. These affect not only quality of life but also 
survival. Several studies has shown that people who are lonely, 
depressed, and isolated are many times more likely to get sick and die 
prematurely than those who are not. In part, this is mediated by the 
fact that they are more likely to engage in self-destructive behaviors 
when they feel this way, but also via mechanisms that are not well-
understood. For example, many people smoke or overeat when they are 
stressed, lonely, or depressed.
    What is sustainable is joy, pleasure, and freedom, not deprivation 
and austerity. When you eat a healthier diet, quit smoking, exercise, 
meditate, and have more love in your life, then your brain receives 
more blood and oxygen, so you think more clearly, have more energy, 
need less sleep. The latest studies have shown that your brain may grow 
so many new neurons that it may get measurably bigger in only a few 
months--this was thought to be impossible only a few years ago. Your 
face gets more blood flow, so your skin glows more and wrinkles less. 
Your heart gets more blood flow, so you have more stamina and can even 
begin to reverse heart disease. Your sexual organs receive more blood 
flow, so you may become more potent--the same way that drugs like 
Viagra work. For many people, these are choices worth making--not just 
to live longer, but also to live better.
    In other words, the debate on prevention often misses the point: 
the mortality rate is still 100 percent, one per person. So, it's not 
just how long we live but also how well we live. Making comprehensive 
lifestyle changes significantly improves the quality of life very 
quickly, which is what makes these changes sustainable and meaningful.
    Finally, it's worth pointing out that what's good for your personal 
health is good for the planet's health; what's personally sustainable 
is globally sustainable. For example, eating a diet high in red meat 
increases the risk of heart disease and many forms of cancer. It also 
increases global warming: livestock cause more global warming than all 
forms of transportation combined due to methane production, which is 21 
times more powerful a greenhouse gas than carbon dioxide. This causes 
acid rain, damaging the external environment, as well as causing your 
blood to be more acidic, which damages our internal environment and 
promotes inflammation and chronic diseases. Livestock cause rain forest 
deforestation due to clear cutting for grazing land at a time when the 
rain forest survival is at a tipping point. This also creates water 
shortages at a time when water is increasingly scarce.
    Sometimes, our problems seem overwhelming. Many people find that 
knowing that the personal choices we make in our lives each day have 
such a powerful effect on our external environment as well as our 
internal environment make it more meaningful and thus more motivating 
to make more healthful choices.
    In summary, integrative medicine approaches bring together liberals 
and conservatives, Democrats and Republicans, because they are both 
medically effective and, important in our current economic climate, 
cost-effective. These approaches emphasize both personal responsibility 
and the opportunity to make affordable, quality health care available 
to those who most need it. They can be an important part of health 
reform.
    As Senator Harkin said in our recent Newsweek interview, ``To date, 
prevention and public health have been the missing pieces in the 
national conversation about health care reform. It's time to make them 
the centerpiece of that conversation. Not an asterisk. Not a footnote. 
But the centerpiece of health care reform.''

    Senator Harkin. Thank you very much, Dr. Ornish.
    Now, we will turn to Dr. Andrew Weil. At present, Dr. Weil 
is the director of the Arizona Center for Integrative Medicine 
at the University of Arizona, where he holds the Lovell-Jones 
Endowed Chair in Integrative Rheumatology and is clinical 
professor of medicine and professor of public health.
    The center is the leading effort in the world to develop a 
comprehensive curriculum in integrative medicine. Graduates 
serve as directors of integrative medicine programs around the 
United States, and through its fellowship, the center is now 
training doctors and nurse practitioners around the world.
    It was Dr. Weil who first told me a long time ago, and it 
stuck with me ever since, that the natural state of the human 
body is to be well. Most times, we interfere with that rather 
than helping it along, and I have always remembered that advice 
you gave me many years ago.
    There is nothing more I can say. As I said, you are all so 
well known around this country and around the world, I wouldn't 
add anything other than just to thank you again, Dr. Weil, for 
your great leadership, welcome you to the committee, and please 
proceed.

  STATEMENT OF ANDY WEIL, M.D., DIRECTOR, ARIZONA CENTER FOR 
     INTEGRATIVE MEDICINE, UNIVERSITY OF ARIZONA, VAIL, AZ

    Dr. Weil. Thank you, Mr. Chairman, Senator Mikulski. Thank 
you for giving me the opportunity to testify here today.
    Even before the current financial meltdown, people were 
predicting that the healthcare crisis had the potential to sink 
our whole economy. This is a very high priority.
    All of this is even before the baby boomers get into the 
age ranges where they develop the diseases of aging and become 
the major burden on our healthcare system, or the generation of 
fat kids that we are raising, something entirely of our own 
creation, develop the long-term complications of obesity, 
especially of type 2 diabetes.
    We are likely to see an epidemic of coronary heart disease 
in young men, something we have never had to deal with. I think 
these two things coming at the same time give us very little 
hope unless we do things very differently.
    Now I think it is common knowledge today that we have got 
to move in the direction of disease prevention and health 
promotion. The reason that our healthcare costs have become 
unbearable is that we are locked into a system of disease 
management, and most of the disease that we deal with, as Dr. 
Ornish said, is lifestyle related and, therefore, preventable.
    I think it is less obvious, and I am very happy to hear you 
articulate this today, that we also have to have a 
transformation of medicine as part of real healthcare reform. 
Unless we change the nature of the kind of medicine that we do 
today, there is no way that we can pay for healthcare in the 
future because the high-tech interventions that medicine depend 
on are simply too expensive.
    Also, those high-tech interventions, in my experience, are 
really appropriate only for a minority of cases of disease. 
When we are dealing with life-threatening illness, with disease 
involving vital organs, with trauma, with medical crises, 
surgical crises, I think there is nothing finer in the world 
than American medical technology.
    We are trying to use this for everything that comes in the 
door, and that is why we have these unbearable costs. The root 
problem, as I see it here, is that our physicians and allied 
health professionals are not trained to use low-tech methods of 
interventions that are cheaper, safer, and that I think can 
produce, in many cases, outcomes as good or better than those 
of conventional medicine.
    Let me just give you two examples of what I mean by low-
tech approaches. I mean aside from the obvious ones of dietary 
change and lifestyle change and so forth. There is an awful lot 
else out there that is not even on the radar screen of 
conventional medicine that I think we can identify and use.
    Over the years, I have become known as an unusual physician 
who teaches breathing techniques to patients, and I did not 
learn this at Harvard Medical School. I learned this from two 
sources. One was from studying yoga, because there is a whole 
division of yoga that places great emphasis on breath, and I 
learned it from working with old osteopathic physicians, old-
timers who did manipulation as their main technique and also 
place great emphasis on breathing.
    There is a simple breathing method that I teach to most 
patients that takes all of about 30 seconds twice a day to do. 
I think this is the single most powerful medical intervention I 
have ever come across in my studies in many cultures over many 
years.
    I have seen--I now have five cases of people who have 
stopped atrial fibrillation with it, something I wouldn't have 
thought was possible. People who have had chronic digestive 
diseases who are now cured, just by working with this breathing 
technique. People who have stopped the most severe forms of 
panic disorder and other forms of anxiety disorder, and there 
are people who have solved insomnia problems.
    This is a technique that uses no equipment. It is 
absolutely free, makes use of something right under your nose, 
and nobody thinks of using it. Just imagine if we brought this 
one method into mainstream medicine how much money this could 
save in terms of drugs that didn't have to be prescribed, 
adverse reactions to drugs that wouldn't have occurred, and so 
forth.
    There has been essentially no research on breathing as a 
health intervention. Why? It is not taken seriously. When I try 
to talk to colleagues about it, it seems too simple. There is 
no drug involved. It doesn't use a device. It is just too 
simple.
    I will mention another intervention that I have become 
fascinated with. You may have heard of a technique called 
``laughter yoga'' developed by an internist in India. We are 
calling it--laughter therapy--to dissociate it from yoga. This 
man's discovery was that there is an easy way to induce 
laughter in groups of people by having them simulate laughter.
    There is interesting research showing that real laughter, I 
mean laughter where people tear and it becomes involuntary, 
lowers levels of serum cortisol, stabilizes blood glucose 
levels, has a powerful antidepressant effect.
    A colleague of mine, Dr. Gulshan Sethi--a cardiothoracic 
surgeon in Tucson, is a recent graduate of our integrative 
medicine fellowship--and I are proposing a research project 
with a group of Iraq war veterans in the VA hospital out there 
who suffer from posttraumatic stress disorder to look at this 
intervention, which I think holds great promise of success to 
deal with that terrible condition, which is now so costly to 
manage.
    These are examples of kinds of things that integrative 
medicine can discover and bring into mainstream medicine to 
help us lower costs.
    Now I am an educator, and so I have great faith in 
education as something that can save us. The model of 
integrative medicine that I and my colleagues have developed at 
the University of Arizona, which is now recognized as the 
international standard of training in this field, I think holds 
tremendous potential for us.
    We need a new generation of health professionals. We need a 
new generation of doctors. We need a new generation of nurses 
and nurse practitioners, a new generation of pharmacists and 
allied health professionals. For example, you said that I once 
told you long ago that the body wants to be well, that this is 
its natural condition. I was taught nothing about health and 
very little about healing in my medical school education.
    The fundamental principle of integrative medicine is that 
there is this tremendous innate healing capacity that we all 
have. When I sit with a person who is sick, always at the back 
of my mind is the question, what is blocking healing here? What 
is preventing it? What can I do from outside that can 
facilitate that process?
    That perspective is missing from the training of our health 
professionals, and that is where it has to start. In addition, 
we have to look at patients as more than physical bodies. We 
are also mental, emotional beings. We are spiritual entities. 
We are community members. Those other dimensions of human life 
are very relevant to health and illness.
    If we cut ourselves from them and only focus on the 
physical body not only do we miss out on understanding the real 
causes of health and illness, but we cut ourselves off from all 
these interventions that may be cheaper, safer, and more 
effective than those just directed at the physical body, like 
pharmaceutical drugs.
    Integrative medicine also insists that we pay attention to 
all aspects of lifestyle and understanding health. I know this 
is certainly centered on Dr. Ornish's and Dr. Oz's work. I 
think an educated body of health professionals can be great 
allies to you and people in Government in bringing about the 
kinds of changes that are necessary if our society is going to 
make these choices easier for people rather than harder for 
people.
    Let me just give you an example. If you look at the success 
we have had with smoking reduction. This is an interesting case 
to look at because if you go back to the 1920s and 1930s, there 
was a totally different cultural value placed on smoking. This 
was the year in which everybody who was anybody smoked. 
Athletes smoked. Artists smoked. Physicians smoked. All movie 
stars smoked.
    Just rent a movie from the 1930s and look at how everyone 
on the screen smokes all the time. How could you have grown up 
in America at that time and not wanted to smoke? If you were an 
unfortunate person who didn't smoke and didn't like being 
exposed to it, not a chance. Smoking was considered a nuisance, 
not anything that was dangerous.
    Of all the things that we have tried to reduce--we have 
raised taxes on cigarettes. There have been lawsuits against 
cigarette companies. We have restricted sales of cigarettes. 
There have been incessant public service messages about it. 
What has worked, and what hasn't?
    We have significantly reduced smoking in some groups. We 
still have a ways to go because it is up in other groups. We 
have made a lot of progress.
    It seems to me that the lawsuits are irrelevant. Attempts 
to restrict tobacco advertising I don't think are very 
successful because if you block the companies in one area, they 
find other ways around that to do it in other areas. I think 
raising taxes has had an effect, and that is something to 
consider in looking at changing food behavior.
    To me, the single most important thing that has made 
progress is a consistent, informed message coming from the 
healthcare community about the hazards, the health hazards of 
cigarettes. It is that which has enabled us to pass laws 
getting smoking out of public places. Because as long as 
smoking was just considered a nuisance, there was no chance of 
progress. Now that people realize that this is a real health 
hazard to people, it is possible to legislate against it.
    I can't overemphasize the importance of having on your side 
an informed community of health professionals who understand 
the lifestyle influences on health and can really work as 
powerful social/political agents to bring about the changes in 
priorities that we have to have in the society if we are to be 
working to facilitate people making the right lifestyle 
choices, not the wrong ones.
    My bottom line is that we must have a transformation of 
medicine as part of real healthcare reform, and I would say 
that having new educational models, such as the integrative 
medicine training that we offer at the University of Arizona, 
which, by the way, we are scaling up to really make a required 
accredited part of all residency training and all medical 
specialties. This is fundamental to the kinds of changes that 
we have to see.
    Thank you.
    [The prepared statement of Dr. Weil follows:]
                Prepared Statement of Andrew Weil, M.D.
    Mr. Chairman and members of the committee, thank you for the 
opportunity to speak to the committee about the vitally important issue 
of health care reform. My name is Andrew Weil, and I am founder and 
director of the Arizona Center for Integrative Medicine at the 
University of Arizona's College of Medicine, where I am also the 
Lovell-Jones Professor of Integrative Rheumatology, Clinical Professor 
of Medicine & Professor of Public Health.
    Everyone agrees that functional, cost-effective health care must be 
built on a foundation of disease prevention and health promotion. The 
main reason for the impending collapse of the American health care 
system is its lopsided focus on intervention in established disease, 
much of which is lifestyle-related and therefore preventable.
    It is less obvious that meaningful health care reform also requires 
a transformation of medicine. The high-tech interventions that 
conventional medicine primarily uses, including pharmaceutical drugs, 
are simply too expensive. American health professionals are not trained 
to use low-tech, cost-effective treatments that work well for many 
common disease conditions.
    Integrative Medicine (IM) can solve both of these problems. As 
developed and taught by the University of Arizona Center for 
Integrative Medicine, it addresses all aspects of lifestyle to promote 
health and alleviate illness. Our national educational models are 
taught online and can be scaled to deliver training to large numbers of 
physicians, nurse practitioners, and allied health professionals to 
make them agents of lifestyle change. Furthermore, by identifying and 
employing a range of therapies from dietary adjustment to breathing 
exercises to carefully selected methods currently outside the medical 
mainstream (for example, acupuncture and osteopathic manipulation), IM 
can offer low-cost alternatives to pharmaceutical drugs and surgery for 
many conditions that now drain our health care resources. We emphasize 
proven, low-risk, low-cost interventions to treat disease, progressing 
to high-cost, high-tech interventions only when the severity of 
conditions demands them or after simpler measures have failed.
    For practitioners of IM, preventing disease is not an afterthought, 
it is the cornerstone of our practice--the physician and patient form 
an ongoing partnership to maintain health, rather than fight illness, 
and IM practitioners are trained to be agents of lifestyle change. We 
treat illness promptly and aggressively when appropriate, but always 
seek to maximize the body's innate capacity to stay healthy and resist 
disease and injury.
    My message today is that this system, integrative medicine, must be 
a key part of American health care reform.
    Here is why: The citizens of the United States spend more per 
capita on health care than do the citizens of any other nation in the 
world--by a long shot. Costs of medical care have spiraled out of 
control, rising at such an accelerating rate that they are now a 
leading cause of personal bankruptcy. Every 30 seconds, an American 
files for bankruptcy as a result of health care costs.
    Despite the magnitude of this crisis, when I listen to discussions 
about health care reform, I hear next to nothing about the real causes 
of the crisis or the real changes required to solve it. Most 
commentators assume that the root problems are (a) how to give more 
people access to the present system and (b) how to pay for it. I 
strongly disagree.
    Why? If we were the healthiest people in the world, perhaps our 
massive expenditures for health care would be justified. The sad fact 
is that by virtually every measure of health outcomes--including 
longevity, infant mortality, fitness, and rates of chronic diseases--
the United States is at or near the bottom compared to other developed 
countries. We are paying more and more for health care, and have less 
and less to show for it. Clearly, we are spending all that money in 
wrong ways.
    Please consider the following myths, and the realities that they 
conceal:

    <bullet> Myth #1: Because America has the most expensive health 
care in the world, it must have the best.
    Reality: The World Health Organization recently rated America 37th 
in health outcomes, on a par with Serbia.
    <bullet> Myth #2: American technology makes it possible for us to 
achieve medical excellence.
    Reality: We have powerful technology, but we misuse it and overuse 
it, driving up costs and worsening health outcomes. To choose just one 
small example, expensive cholesterol-lowering statin medications, which 
may have serious side effects, are being recommended for millions of 
healthy women and healthy men over 69 years of age, but an analysis in 
the January 2007 issue of the medical journal, The Lancet, concluded 
that such medications did not reduce total deaths in those groups. 
[source: The Lancet, Volume 369, Issue 9557, Pages 168-169, 20 January 
2007, http://www.thelancet.com/journals/lancet/article/PIIS0140-
6736(07)60084-1/fulltext]
    <bullet> Myth #3: Our medical schools and scientific facilities 
produce the world's finest physicians and conduct the most productive 
research.
    Reality: Our medical and scientific infrastructure is extensive, 
but it is controlled by an almost fundamentalist orthodoxy that limits 
our ability to understand and promote health and to prevent disease. 
Medical education today omits whole subject areas of great relevance to 
those ends, including nutrition, mind/body interactions, and 
environmental effects on health. We train researchers to think 
simplistically and focus narrowly on single interventions directed at 
the physical body, especially pharmaceutical drugs. (The manufacturers 
of those drugs strongly influence researchers, practitioners, and the 
journals that report research results.)

    In short, we do not have a ``health care'' system at all. Instead 
we have a disease management system that is deeply dysfunctional and 
getting more so by the day. Our national health is deteriorating, and 
we have the highest percentage of uninsured citizens of any democratic 
society; no other nation is close. With unemployment rising at an 
alarming rate, great numbers of Americans are losing their health 
insurance along with their jobs, further swelling the ranks of the 
uninsured. This is unacceptable.
    So what must we do?
    Let me say again: The challenge is not figuring out how to give 
more people access to the present collapsing system. The challenge is 
to envision what we can create to replace it.
    I have long taught that health is an individual responsibility. It 
is up to you to learn how to maintain it and to protect your body's 
potential for self-healing as you go through life. No doctors, no 
treatments, no system can do this for you or force you to do it on your 
own.
    Medical professionals and institutions can help, however, by 
improving your understanding of health. They can inform you about the 
influence of lifestyle choices on your risks of disease. They can 
provide preventive medical services to protect you from common, serious 
conditions, for instance, by immunizing you against infectious 
illnesses and screening you for forms of cancer that are curable if 
detected early. They can identify and explain problems that require 
expert diagnosis and treatment, then guide you in selecting the best 
therapy. They can help you if you are a victim of trauma or suffer a 
heart attack or need other emergency medical or surgical attention.
    I believe--strongly and passionately--that every American has a 
right to good health care that is effective, accessible, and 
affordable, that serves you from infancy through old age, that allows 
you to go to practitioners and facilities of your choosing, that offers 
a broad range of therapeutic options. Your health care system should 
also help you stay in optimum health, not just take care of you when 
you are sick or injured. You should expect and demand this of your 
country, whether you are rich or poor, whatever the circumstances in 
which you live. A free, democratic society must guarantee basic health 
care to its citizens--all of them--just as it guarantees them basic 
security and safety. It is in society's interest to do so: the 
healthier our population, the stronger and more productive we will be 
as a nation.
    It comes down to this: Our long-term goal must be to shift our 
health care efforts from disease intervention to health promotion and 
disease prevention. That does not mean withholding treatment from those 
who need it; those with existing conditions need to be treated 
effectively and compassionately. My concept of prevention goes well 
beyond immunization, sanitation, and diagnostic screenings. I am 
suggesting that the time has come for a new paradigm of preventive 
medicine and a society-wide effort to educate our citizens about health 
and self care.
    Breaking dependence on costly high-tech medical interventions will 
require fundamental changes in medical education and practice, as well 
as rethinking the nature of health and healing, the role of treatment, 
and our expectations of medicine. Without a transformation of medicine 
we cannot have the health care we so desperately need: health care that 
is effective, serves everyone, and does not bankrupt us individually or 
collectively.
    It can happen. It is happening. Federal mandates can only serve to 
speed an ongoing, natural evolution that is well underway. I lead an 
effort at the University of Arizona to train doctors in integrative 
medicine, which, as I have said, values inexpensive, safe and 
effective, low-tech treatments as alternatives to outrageously priced 
pharmaceutical drugs. In fact, my work to advance this new field has 
provided part of the inspiration to testify here today, because its 
early success makes me absolutely certain that it is the key to getting 
American health care back on course.
    Consider: Integrative medicine is quickly gaining momentum. I 
founded the first integrative medicine training program at the 
University of Arizona in 1992. Today, 42 academic health centers, 
including those at Harvard, Duke, Johns Hopkins, and the University of 
California as well as the Mayo Clinic, have IM initiatives. [source: 
http://www.imconsortium.org/about/home.html] At the University of 
Arizona alone, we have trained over 400 physicians, nurse 
practitioners, and medical residents, many of whom are now leading 
their own programs at other institutions in this country and around the 
world. We are expanding our trainings as quickly as we can, because 
demand for them is increasing rapidly, and are working to make a 
comprehensive curriculum in IM a required, accredited part of all 
residency training in all medical specialties. I can assure you, that 
more and more doctors and allied health professionals want to practice 
this kind of medicine, because they see it as the medicine of the 
future: cost-effective medicine that can revitalize American health 
care and make it truly the best in the world.
    Consumers have already embraced integrative medicine, but skeptics 
still question whether it really works. We need good outcomes studies 
to convince them, but we already have data showing that patients do 
indeed achieve better outcomes and are more satisfied with their care 
when treated by integrative physicians. For example, a 2008 study of 
patient experiences at the University of Michigan's Integrative 
Medicine Clinic showed that over 62 percent of responding patients 
called the clinic's care either ``excellent'' or ``best care ever.'' An 
amazing 81.2 percent of respondents reported partial or full 
effectiveness of their patient plan in achieving their primary 
objective. [source: http://www.liebertonline.com/doi/pdf/10.1089/
acm.2008 
.0154] That is a success rate most conventional clinics could not 
match.
    Health care reform can and should extend beyond the clinic. It must 
also include the creation of incentives and disincentives to encourage 
people to make better lifestyle choices in their daily lives that 
reduce risks of the chronic diseases that now absorb so many of our 
health care dollars. This is a tall order, requiring that the 
government, private sector, and individuals all pull together and move 
in the same direction. It must be done.
    Thank you again for inviting me to testify today. I would be happy 
to assist the committee as it considers health care reform and suggest 
that the Arizona Center for Integrative Medicine is well positioned to 
reach out to other health care leaders who share our belief in the 
importance of transforming medicine in order to secure the health and 
future of our society.

    Senator Harkin. Thank you very much, Dr. Weil. Thank you, 
all.
    I guess what I think about listening to all of you is that 
here we have in four individuals real pioneers, each one of 
you. You have written many books. You are very famous. 
Americans know your names. They have read your books. They have 
read your articles. They have seen you on television.
    We are right now trying to reform, healthcare reform. As 
Senator Enzi said, the President just sent up his budget 
proposal for this reserve fund and all that. I am just 
wondering how do we harness you all in advising us and advising 
the President and moving us in the direction you have all 
talked about? I mean, there isn't a hair's width of difference 
between what any of you are talking about.
    How can I put you in great positions of power so that you 
can dictate changes in our system? I am so frustrated with 
this. You have such a great following among the American 
people, and you are doing wonderful things.
    How do we take this and then move all the things you are 
talking about into this sphere here of healthcare reform so 
people start thinking, yes, this is what we have got to do? 
Rather than just, as many of you mentioned, we are going to 
jiggle a little bit on the repayment and jiggle a little here 
and that kind of thing.
    Dr. Weil. There is so much that has to change, though. Look 
at the whole--the mindset that prevails in this culture on the 
part of both doctors and patients that the only legitimate way 
to treat disease is by giving drugs.
    Senator Harkin. Yes.
    Dr. Weil. You know, you can blame the pharmaceutical 
companies, but they are just capitalizing on this deeply 
established mindset. You could talk to a patient until you are 
blue in the face about lifestyle change and so forth, but if 
they had a chance to buy a pill that they thought would help 
them lose weight, they would go for that.
    Senator Mikulski. Absolutely.
    Dr. Weil. Again, to me, this is a matter of education, and 
the education has to start--it has got to be K through 12. I 
would also love to see, in the Department of Education, an 
Office of Health Education that would be well-funded, that 
could really work to get creative health education beginning in 
kindergarten.
    I think there is huge possibilities today of using, for 
example, this new generation of interactive videogames and 
harnessing this for real health education. It has got to be 
throughout society. I am focused on education of physicians and 
health professionals, but we need education of the general 
public to change a lot of this underlying mindset.
    Senator Harkin. Dean.
    Dr. Ornish. First of all, I appreciate the question. The 
answer is how can you get us involved? Ask us. Because we have 
all seen what a powerful difference these changes can make, how 
they can transform people's lives. We have been looking for 
leverage, how can we make this available?
    We have learned because we have trained, now, hospitals 
around the country. Senator Mikulski, I want to make sure that 
I honored you, now that you are back, to talk about the major 
difference you made in Medicare doing the demonstration 
projects so that we could demonstrate that we can work with 
teams of people, with social workers like yourself, with 
clinical psychologists, dieticians, yoga teachers, exercise 
physiologists, nurses, and doctors working together as a team.
    We have shown that we didn't know if it would work as well 
in Omaha or Columbia, SC, where they told me gravy is a 
beverage. You know, this will be a big change for lifestyle.
    [Laughter.]
    As it would in New York or San Francisco or Boston. But it 
did. We were able to train teams of people to do it. Just like 
Dr. Oz is doing with HealthCorps, we are doing this in a 
parallel way. We have been doing it now for 16 years, and we 
have shown that it works.
    We have learned what works to motivate people to make 
sustainable changes. We have shown we can motivate people to 
make bigger changes in lifestyle, get better clinical outcomes 
and even larger cost savings.
    Now it is a little like people say, ``Well, why would you 
mess around with all this touchy-feely stuff? Why don't you 
just take a pill?'' It is like that scene from Raiders of the 
Lost Ark, when the guy comes out and does all his martial arts 
and kung fu, and Indiana Jones just takes out a gun and shoots 
him. Like, why don't you just take a pill? It is going to do 
it.
    The idea that taking a pill is easy and everybody will do 
it, but changing lifestyle is impossible is not really what we 
are finding. You might say, ``Well, why is that?'' It is 
because we normally try to scare people into change. You know, 
use fear of dying. If you don't quit smoking, you are going to 
get lung cancer.
    That doesn't work because it is too scary to think about, 
and people don't want to think that something bad may happen to 
them. So they don't. Taking a pill to lower your cholesterol 
doesn't make you feel better. You are taking something today to 
prevent something really awful like a heart attack or a stroke 
that you don't want to think about. So you don't.
    When you change your lifestyle, when you change what you 
eat and how you live, most people--your brain gets more blood. 
You think more clearly. You have more energy. Your brain can 
actually grow so many new brain neurons your brain gets bigger 
in just a few months.
    Your sexual organs get more blood flow, the same way that 
Viagra works. Smoking actually is marketed to make you look 
beautiful and sexy, and it makes your skin, the vessels 
constrict. So you wrinkle faster. Half of the guys who smoke 
are impotent. It makes you ugly and impotent. How fun is that?
    In fact, the most effective anti-smoking ad was when the 
Department of Health Services had these billboards that dressed 
the guy up like the Marlboro Man, and the headline was 
``Impotence'' and had a limp cigarette hanging out of his 
mouth.
    Part of what we are learning is that if we really want to 
make sustainable changes, we need to talk about the feeling 
that there is no point in giving up something that you enjoy 
unless you get something back that is better. Because these 
mechanisms are so dynamic, most people find they feel so much 
better so quickly it reframes the reason from changing from 
fear of dying to joy of living.
    Senator Harkin. Yes.
    Dr. Hyman. I think your question, Senator Harkin, was very 
important, which was how do you take advantage of the science 
that we know and put it into practice? How do you make science 
policy?
    I think what we are talking about is really based on new 
evidence that shows that lifestyle is the most effective, and 
these therapies are the most effective and cost-effective to 
create change.
    A way to do that is partly in Dr. Jonas's proposal to 
create a White House office or a congressional office. More 
importantly, within that was to create an advisory council of 
leaders who can advise Congress and advise the White House on 
these approaches and how to implement them into policy.
    We are fighting a huge uphill battle. There is $30 billion 
spent by pharma educating physicians, ``educating'' on the use 
of medications through direct marketing and other sources. That 
accounts to $30,000 per doctor in this country to educate them 
on how to use medications.
    There is $30 billion spent by the food industry to educate 
people about how to eat junk food. That is $60 billion. If we 
took a fraction of that, we could make enormous impact in 
changing consciousness and putting in programs that are 
effective and demonstrate benefits. Based on the work of Dr. 
Ornish and Dr. Oz and Dr. Weil, these are the kinds of things 
that can make enormous impact, and providing the 
infrastructures to do that is key.
    It doesn't take a lot of money. We are talking about small 
amounts of money for demonstration projects, maybe $5 to $10 
million per demonstration project in three or four centers 
around the country in different demographics to implement this 
model and show that training integrated healthcare teams works 
in this way to deal with chronic disease. Implementing not just 
the way we do medicine now better, but a different way of doing 
medicine.
    We really need to foster and develop the things that Andy 
has developed and other kinds of institutions that extend the 
education. I completely agree with Andy that we have to train a 
new generation of practitioners. Because if we just have the 
ones that we have now doing what they do better, that is not 
going to solve the problem.
    I think putting funding on that, and that could be a small 
amount, relatively, to the budget. A hundred million dollars 
could establish a really profound change in medical education.
    Dr. Ornish. Just to build on what they are saying, Andy is 
completely right--Dr. Weil--that we doctors do what we get 
trained to do and we get paid to do what we get trained to do. 
So, if we change reimbursement, we change medical practice and 
medical education.
    Most doctors are not happy with the current model. The 
studies show that most doctors wouldn't recommend medicine as a 
career for their kids because it is not fun to practice 
medicine when you have to see a new sick patient every 6 
minutes. It doesn't work.
    If we change reimbursement and we reimburse these kinds of 
integrative approaches, the kind of programs that we have shown 
in hospitals are much more cost effective than using drugs and 
surgery, that will change the practice of medicine. We could do 
a million studies with 10 million patients, and it will always 
remain on the fringes unless we change reimbursement.
    Dr. Weil. Again, I just see education as the fundamental 
here. At the moment, our physicians, other health professionals 
are not trained in practical nutrition. They are not trained in 
mind-body interactions. They are not trained in the use of 
botanicals. They are not trained in the use of dietary 
supplements.
    There are huge areas of omission here. The education of 
pharmacists, because they are not trained in the use of natural 
therapeutic agents, they have abandoned all this territory to 
health food store clerks. As an assignment, I used to send 
medical students to health food stores, and I asked them to 
loiter and listen to the conversations that went on and observe 
the extent to which health food store clerks have replaced 
pharmacists as practical dispensers of health information.
    I have met some very intelligent health food store clerks. 
As a group, they have no standardized training, and they often 
dispense information that comes to them from the manufacturers 
and distributors of products. The pharmacists need to take this 
territory back.
    So, this is something again. At our center, we work with 
our College of Pharmacy to develop educational modules in these 
areas that are now omitted. Similarly, we go around to all the 
allied health professions, and these big defects need to be 
corrected.
    Dr. Oz. I could offer just one quick thought and that is we 
sort of need a martial arts approach to this. A small effort 
with a big impact. I think one of the benefits of health 
coaches movement or HealthCorps, which deals with young kids, 
is that you take people whose basic instinct is going to be 
lifestyle based, and you get them to touch the lives of 50 
people around them. So you leverage it.
    The first recommendation becomes, don't have the procedure 
on your heart, do the lifestyle approach. The three other 
members of this panel have the technology, the know-how to 
build the system. If we build it and we have the knowledge base 
of people incentivized to think about it, they will come.
    I think you have got the raw material here to change 
education. We have to have that leverage element to make it 
into a movement. I think the things we have talked about are 
inexpensive ways of doing that.
    Senator Harkin. Is HealthCorps getting any Federal funds at 
all?
    Dr. Oz. We get moneys that are given from the Federal 
Government to States and then to us. It goes through Federal 
grants, although we are, as I mentioned, working with one 
Federal agency, which we will hopefully get some funding from.
    But you know what? I am a pretty good fundraiser. I will 
raise money for HealthCorps for now. What we really need is the 
opportunity to do what you offered earlier, was to play a role. 
It is hard to help sometimes.
    When I had this discussion with Mayor Bloomberg of New York 
City, ironically, they want people to help the school system. 
The average citizen who lives in New York City, where I work, 
doesn't know how to help. I think we sort of feel that way 
sometimes.
    Dean, over dinner with beer, will tell me it took him 14 
years to get his project into Medicare.
    Dr. Ornish. We had a discussion with the head of Medicare, 
the administrator, I guess it was now 10 years ago. And he 
said, ``Well, we will do a demonstration project, but you have 
to get a letter from the head of the National Heart, Lung, and 
Blood Institute saying that your program is safe.''
    I said, ``You mean safe as an alternative to having your 
chest cut open?'' And he said, ``No, that it is safe.'' I said, 
``You want me to get a letter from the head of the NHLBI saying 
it is safe for older people to walk, meditate, quit smoking, 
and eat vegetables?'' And he said, ``yes,'' and that is what we 
had to do.
    With all this talk about evidence-based medicine, I mean, 
even knowing, for example, the studies, the randomized trials 
that have shown that angioplasties for 95 percent of people 
don't prolong life or prevent heart attacks has not diminished 
the rate at which angioplasties are done because it is 
reimbursable.
    You have cited, Senator Harkin and Senator Mikulski, the 
diabetic foot. They will pay the $10,000 to amputate it, but 
not the few hundred to prevent it.
    We have just published some studies showing that when you 
change your lifestyle, it changes your genes. It turns on the 
disease preventing genes and turns off the genes that cause 
heart disease and breast and prostate cancer.
    Dr. Hyman. That is right. Quickly.
    Dr. Ornish. The point is that if we can change 
reimbursement, we are all here to serve in whatever way you 
think we can be helpful to you. And the time is now.
    Dr. Hyman. Yes. I would just emphasize the whole aspect of 
health coaching. I think the things that Dean has done for 
almost two decades, training teams of people to work together, 
and what HealthCorps does has also amplified other programs 
that are existing.
    For example, like first-line therapy, based on the NIH 
recommendations for therapeutic lifestyle changes, already 
trained 12,000 lifestyle educators in over 7 years in 50 States 
that are implementing this program. They are able to do this 
within doctors' offices and practitioners.
    There is no model for reimbursement. There are actually 
practitioners who are sending their staff to go get trained in 
this so they can be lifestyle educators, and they are sucking 
up the cost from their practice because they believe in this. I 
think that kind of effort needs to be amplified and expanded on 
and funded.
    Senator Harkin. Have any of you ever met with Peter Orszag?
    Dr. Ornish. Well, Peter Orszag was instrumental when he was 
the head of the CBO in doing a thorough review, looking at our 
program for reversing heart disease, and determining that, in 
fact, it was cost-effective, because that is always the 
concern.
    I am a great fan of Peter Orszag. I think he is brilliant, 
and I am glad he is in the position that he is in now.
    Senator Harkin. The reason I ask that is because, 
unfortunately, and I have talked with him, as I talked with 
Senator Daschle about this, the problem is the scoring that we 
have here.
    Dr. Ornish. Yes.
    Senator Harkin. The CBO does not give us any savings for 
anything like this, and so it is always just a cost additive.
    Dr. Ornish. Well, we have actually shown that it does save 
money, and that is what is interesting. Because these 
mechanisms are so dynamic, you don't have to wait years to see 
the payoff. In the first year, we found we cut costs in half. 
Blue Cross Blue Shield of Pennsylvania had a very skeptical, 
hostile head of informatics, was sure that this wouldn't save 
money. And compared to a matched control group, in the first 
year it cut their costs in half.
    Now you multiply that by the $2 trillion or whatever it is 
that we are spending on healthcare, that is a lot of money. It 
adds up quickly.
    Dr. Hyman. That is right.
    Senator Harkin. Free flowing.
    Dr. Ornish. We just want to say how much we are so grateful 
to be here, and we--I know, speaking for all of us, we really 
appreciate what you are doing. We know how hard it is.
    Senator Harkin. Well, we appreciate what you are doing out 
there. We have just got to figure out how we--if you will 
excuse the phrase, how we integrate you----
    [Laughter.]
    Senator Harkin [continuing]. Into this health reform 
debate.
    Senator Mikulski.
    Senator Mikulski. Well, first of all, I, too, want to be 
enthusiastic in my welcome of all of you who are here. Senator 
Harkin and I have had a reputation for being reformers and also 
not reformers of, again, the status quo or the stagnant quo, 
but really bringing new thinking in. His work is well known.
    I know, of course, Dr. Ornish personally. We had this 
discussion 15 years ago at a renaissance weekend.
    Dr. Ornish. That is right.
    Senator Mikulski. All this is like an overnight, a 20-year 
overnight success.
    Dr. Ornish. We love you.
    [Laughter.]
    Senator Mikulski. First, I just want to say a word about 
language because language can be determinative, and also even 
the way these three working groups have been established within 
this committee reflects a dated paradigm.
    We have something called coverage. So what are we covering? 
Something called prevention. Something called quality in 
systems. You can't separate the two out because you can't have 
quality unless it is prevention. You can't have prevention 
without quality.
    That is why my little working group is called ``Quality: 
The Pathway to Saving Lives and Saving Money.'' So that is 
dated.
    The second thing is that we focus, if I could, using the 
term ``prevention,'' it is the prevention of disease. That is 
dated. The real word is the promotion of wellness.
    Dr. Ornish. That is right because people don't really want 
to think about prevention because it means that something bad 
might happen to them. It is about joy of living, not fear of 
dying.
    Dr. Hyman. Most of our prevention is early detection, which 
doesn't really understand the mechanisms of disease and how to 
promote health and create health. Most doctors are not trained 
in what is health or how to create health. That is what these 
new concepts and principles that we are all talking about teach 
us to do, and that is a teachable, scalable thing that can be 
taught to a new generation of physicians.
    Dr. Weil. Can I just mention that as an example of starting 
to do this, the Integrative Medicine in Residency Program is 
now being piloted at eight residency programs around the 
country--in New York, Maine, Arizona, Connecticut, Texas, 
Minnesota, North Carolina. This is a 200-hour curriculum. All 
residents are required to take it. The goal is to extend this 
to all residency programs in all medical specialties.
    Senator Mikulski. Well, we want to be sure that when they 
are trained, they have a place to practice, which----
    Dr. Weil. Right. Sure.
    Senator Mikulski [continuing]. I want to come back to where 
I am heading with what I just said.
    First of all, the vocabulary is dated.
    Dr. Ornish. Yes.
    Senator Mikulski. So, if Senator Harkin chaired the working 
group on wellness, it would be viewed as woo-woo. He chairs the 
working group on prevention, and everybody thinks they get it. 
What the purpose of the hearing is if you get it, you have got 
to get a new way of talking.
    That is our job here, and we could also go to quality. I 
can tell you, when I was given this assignment, quality was 
viewed as see what you are going to do with health IT, even 
though we are going to dump a lot of money and the technology 
won't talk to each other, like we all don't talk with each 
other.
    And second, go to the IOM famous study on quality. You 
know, that is a great beginning. But we are extending this 
beyond that.
    Dr. Ornish. Well, God bless you for that.
    Senator Mikulski. Well, but--and we are going to need God.
    [Laughter.]
    We are going to need spirit, and we are going to need a lot 
of deep breathing. We are going to be spirit-filled, and we 
will wait for the air to come.
    I want to go to some of the principles, if we could, 
because we have to be very pragmatic. There is an urgency that 
is being created, thanks to the presidential leadership of 
President Obama.
    I would say, first, what you are recommending is that as we 
fashion health reform--and it is not health insurance reform. 
Get rid of the word ``insurance,'' though you have to have 
sound fiscal underpinnings. Think about health and health 
outcomes and health promotion.
    Second, there needs to be an ongoing place, particularly at 
the White House level, that really influences the thinking of 
the President, the Cabinet, and, therefore, the Congress.
    Dr. Ornish. Absolutely.
    Senator Mikulski. One would be, and that is what came out 
also in our hearing on Monday, that there be--if there is going 
to be a health czar, that that health czar has to have an 
integral part of being a czar, that part of it has to be the 
wellness and prevention aspect of it.
    And then the second, there is a lot of talk going on about 
the so-called medical or health home. If we look at that, this 
is where we could bring the principles of integrative 
healthcare in it. So we get the best of Western medicine.
    Dr. Ornish. Yes.
    Senator Mikulski. We do need the mammogram test. We might 
need surgical intervention. That is where comparative 
effectiveness research comes in. So you have got that coming 
in.
    As you go through the best of that and even where there is 
a pharmaceutical aspect to that, when that person is going to 
be living their life in their home, their family, and their 
community, there has to be ongoing support. It is not only a 
new healthcare nanny that says, ``Have you gone to your 
ophthalmologist,'' if you are a diabetic. You do need that 
prompting, but that is all part of it.
    Because, again, whether we are talking about the big 
killers--heart disease, diabetes, the other chronic 
conditions--that the way to deal with a chronic condition is 
either to mitigate its progressiveness or also to mitigate 
frequent acute care episodes.
    That then takes the health coach, which really needs to 
have a substantial body of knowledge because, as we know from 
our work on complementary medicine--and again, Senator Harkin 
is the guru status on this--is, that where there is need, there 
is greed. Where there is need and greed, there are quacks. So 
we want to deal with that.
    Do you agree with this? Are these the basic principles 
that, as we look at healthcare reform, we have to do that? And 
then really go back into the community because I would really 
like to ask a question about children, children, children.
    Dr. Ornish. Yes, well, if I can just respond to that? First 
of all, I think you very eloquently and beautifully stated--I 
agree with everything you have said. I would also include 
online. I chair Google's health advisory board. There are 
tremendous opportunities using some of the new technologies to 
provide people in the home these kinds of things that can 
highly leverage people that it gives the illusion that there is 
a health coach or there is a real person, but it can be done 
through software that makes it much more economically available 
at the push of a button.
    The four of us here and many of the other people in the 
room have, in a way, done the hard part already. We have shown 
scientifically that these programs can reverse and prevent the 
diseases that kill more people and account for 75 to 80 percent 
of the costs--the diabetes, heart disease, prostate and breast 
cancer, obesity, and so on.
    We have shown that it can save money. We have each 
developed our own way. Andy--Dr. Weil has developed the leading 
education system. Dr. Oz has developed the leading HealthCorps 
in terms of his approach. Dr. Hyman has developed--is the 
leader in functional medicine. We have shown in now 50 
hospitals where we have trained around the country, from the 
most prestigious academic to community hospitals, that we have 
learned what motivates people to make and maintain these 
changes.
    We know how to do this. We just need to work with you guys 
to develop systems that make what we have shown in our own work 
in different ways available to people throughout the country.
    Senator Mikulski. That is going to be the hard part about 
what these systems are. I would like now, if I could, to talk 
about the children?
    Dr. Ornish. Yes.
    Senator Mikulski. Which I know is very special to the 
members of this committee. We talked about the stopping of 
smoking, and Dr. Weil, you spoke about the interventions, etc. 
Well, one of the ways that we stopped smoking in this 
generation was to start with significant public education of 
the younger generation. From cartoon books, the kind of stuff 
even Joe Califano did, going back to the Carter days, etc.
    Dr. Ornish. That is right.
    Senator Mikulski. Those children now are 40 years old, and 
they don't smoke.
    Dr. Ornish. One of the most powerful ways of getting 
parents to smoke is to realize that the most powerful----
    Senator Mikulski. Stop smoking.
    Dr. Ornish [continuing]. Predictor of whether their kids 
are going to smoke is if they smoke. You know, I would jump in 
front of a train for my son, my 8-year-old, if I thought it 
would help him. Any parent would. It is not a red State or blue 
State issue. It is a human issue.
    When people realize the impact they have on their kids, 
sometimes that can be a powerful motivator.
    Senator Mikulski. Let me go to interventions, though--let 
me get to my questions. We are now going to talk about a new 
healthcare--universal healthcare, but we already do healthcare.
    We do it through the Children's Health Initiative, and we 
do it through Medicare, and we control that. Just like we 
control the VA, and there is a lot of lessons to learn in the 
VA. I wonder even if today, if you could turn your thinking--
because there is going to be a lot of talk about Medicare--we 
are the insurance company for Medicare.
    Dr. Ornish. Yes.
    Senator Mikulski. It is not like you have got to get 
Hartford and Aetna and all to go along with it. Also we just 
expanded the Children's Health Initiative. To me, these are 
cornucopias of opportunity because these are ``health 
insurances that the Federal Government controls.''
    Dr. Ornish. Yes.
    Senator Mikulski. We already control the reimbursement. We 
don't have to negotiate with a lot of people. We are it. Oh, 
yes, the States and the governors. I don't mean to minimize 
that. Also something that has had a moat around it, CMS, as you 
know, Dr. Ornish.
    [Laughter.]
    What I would like, as you go back and you are working on 
the summit and even among yourselves, if you would think about 
those interventions. While we are talking about the universal 
system, which, hopefully, we will do in the next several 
months, to where we could begin right now, right now with the 
expansion of the SCHIP.
    Also then go, particularly with children. Children are a 
captive audience in the school system.
    Dr. Ornish. That is right.
    Senator Mikulski. Not a captive, but we have--it is almost 
like----
    Dr. Hyman. It is an ecological problem.
    Senator Mikulski. It is a place where we can enter, where 
we can actually have intervention and be able to draw upon 
community resources as well.
    Dr. Ornish. Part of the issue I find with kids is if you 
tell kids they are going to live longer if they don't smoke, 
that doesn't mean anything because kids think they are 
immortal. Teenagers even more so.
    Providing information is important, but not sufficient. If 
it were, nobody would smoke. It is on every pack of cigarettes. 
It is not like people who smoke don't know it is bad for them. 
It is almost like riding a motorcycle. It is like it is cool 
because it is risky.
    What we try to do is to take it out of the context of what 
might happen in the future and put it as what happens to you 
now. Do you want to taste like an ash tray when your girlfriend 
kisses you? That makes it much more meaningful than thinking 
you might get a heart attack or lung cancer or emphysema 30 
years down the road.
    And finally, we also found that we need--particularly for 
older people, we need to focus not only on the behavior like 
smoking, but the deeper issues. I would ask people, ``Why do 
you smoke or overeat or drink too much or work too hard or 
abuse substances? These behaviors seem so maladaptive to me.''
    They would say, ``They are not maladaptive. You don't get 
it. They are very adaptive because they help us get through the 
day.'' They talk about, ``I have got 20 friends in this pack of 
cigarettes. They are always there for me, and nobody else is. 
You are going to take away my 20 friends'' What are you going 
to give me?''
    Or they use food to fill the void or alcohol to numb the 
pain. Part of what we are all saying in our different ways is 
that we need to look at these deeper issues that really 
motivate us, both kids and grown-ups, and work at that level.
    Dr. Weil. I think when you are talking about kids, you have 
to realize there are tremendous societal pressures on them to 
make the wrong health decisions. How do you combat that? How do 
you deal with the vested interests who are making a lot of 
money selling unhealthy products to kids, for example?
    Another problem is that healthy choices aren't cool to many 
kids. How do you change that? How do you make healthy behavior 
cool?
    I would again say that creative education is the key here. 
If you think about the kind of health education you got in 
school, which I am sure was the same kind that I got in school, 
it was----
    Senator Mikulski. Thou shalt not.
    Dr. Weil. Thou shalt not.
    Dr. Ornish. That doesn't work.
    Senator Mikulski. Then we went out and did.
    [Laughter.]
    Dr. Weil. Exactly. That is right. Exactly. It was also 
really boring. Who taught it? In my memory, it was often 
physical education teachers who were presenting rote material 
they weren't interested in. I mean, it was a real bore for 
everybody, and then it was the ``thou shalt not.''
    We can do a lot better than that. Here again is why I think 
that the creative use--I am just fascinated by videogame 
technology, these new games like the Sims and Spore in which 
people can really learn the consequences of behavioral choices. 
You can show them that one dietary choice leads to greater 
success, to chance of better jobs, more affluence, more 
girlfriends. I mean, this is stuff that can be modeled. People 
can learn the consequences of behavioral choices in that way.
    I would love to see us create an Office of Health Education 
in the Department of Education that would explore this and 
other technologies for presenting the kind of information we 
have in creative ways.
    Senator Mikulski. Well, I think we could. You know we are 
going to conclude now, and you have been so generous of your 
time.
    Dr. Hyman, though, did you want to add----
    Dr. Hyman. Yes, I just had three things related to the 
children that I think are really key. No. 1, I think we need to 
leverage our influence in public schools to change nutrition in 
those schools, and we need to do it today.
    No. 2, we need to enroll some type of sports and media 
figures in the campaign rather than promoting Pepsi and Coke 
and junk food.
    And No. 3, we need to deal with the advertising that allows 
advertising of these foods to kids. In most other civilized and 
industrialized nations, this type of advertising, like 
cigarette advertising, is not allowed. We cannot fight the 
battle when a kid sees 10,000 ads for junk food every year, 
even if we talk to our kid three times a day at every meal. We 
need to change that.
    Senator Mikulski. Well----
    Dr. Hyman. I know it won't be easy.
    Senator Mikulski. No, it won't be easy. I was just reading 
the New York Times yesterday, where a well-known baked potato 
chip company--I won't use the name--is going to repackage 
itself to women because it seems women--both younger women and 
women of a certain age don't eat these baked chips or whatever.
    They have just spent all kinds of research money on 
neuromotivation research, but the big ad campaign is going to 
be repackaged. It is going to say we are repackaged so you can 
have the kind of package you want. Well, there we go. Isn't 
this fantastic?
    I am only saying that because look at all that work and all 
of that money and all of that. So, if you want baked potato 
chips, I am not going to tell you not to do it. What I am going 
to say is that we need to think differently, and we can't wait 
for Government to do this.
    I don't believe that trickle-down economics works. Like our 
President, I am a grassroots community organizer. All of you, 
with these brilliant Western credentials you have, you have all 
been part of what is already a social movement.
    See, the history of social movements are it always starts 
from the bottom. It meets a compelling need that is then 
organized and harnessed. When Government comes in, it is to 
institutionalize what you have started. We don't start 
anything. We are the benefit of what comes from the bottom up. 
That is what we are getting today. That is what we got on 
Monday and, hopefully, going on at the summit.
    What I really hope to work with my colleagues on, and I 
really encourage you and anyone listening, is to harness what I 
am calling the ``Obama effect,'' and it is not in any way to be 
disparaging to our colleagues from the other party. We have a 
President that is committed to a healthy lifestyle.
    Dr. Ornish. Yes.
    Senator Mikulski. That works out every day. A commitment by 
the first lady of the United States on healthy food and 
nutrition. Their own personal devotion to their children I 
think is going to have a tremendous cultural effect.
    Dr. Ornish. I agree.
    Senator Mikulski. It will now be cool to be like the 
Obamas, and being like the Obamas is pretty healthy. Maybe the 
campaign wasn't, with 19 hours of this and so on. I wish those 
19 debates were aerobic. I would have signed up for the 
primary.
    [Laughter.]
    I think what the President offers is not only the 
opportunity for healthcare reform, but a very important 
cultural moment.
    Dr. Ornish. Totally agree.
    Senator Mikulski. And to make it cool. Also with the 
Cabinet people, we can start a lot of this, particularly with 
children, through executive order and executive leadership, 
whether it is Secretary Vilsack on food and nutrition in 
schools, and I would like to bring that also to the Office on 
Aging.
    You know, every county has these Eating Together programs, 
and the impact there, but also our dynamic Secretary of 
Education Arne Duncan. I think we could already start that 
activity now without even any legislative reform and because so 
much of what would be done is through Senator Harkin's Labor/
HHS.
    We got the Office of Women's Health in NIH because we 
worked together, an idea that could have only happened because 
Senator Harkin put it in the appropriations because of the 
hearings. I held hearings. He got into it. We all got into it 
and so on.
    We don't have to wait for big, massive legislative change. 
I think the moment is now. I think the moment is now, and we 
must seize the moment and not wait for this ``Jell-O thing.''
    Dr. Ornish. How can we help? How can we be of service to 
you both?
    Senator Mikulski. Well, how do you think you can help? That 
is a good--didn't I go to social work school?
    [Laughter.]
    Dr. Ornish. This is like when I was an intern, and they 
said, ``Well, what do you think, Dr. Ornish?'' I thought, 
``Well, gosh, if I knew, I wouldn't have asked.''
    [Laughter.]
    I think we can help in a number of ways because I think for 
each of us we see the time is now. The world has caught up with 
us. I think there is a health summit next week. I am sure each 
of us would be happy to be part of that.
    We are all happy to get on a plane at any time if you have 
any people that you think----
    Senator Mikulski. Actually, what I would like you to do, 
based on what we have heard, what you have heard, and also if 
we could share with you some other of the hearings that we have 
already had on some of this, is to think about the specific 
principles that, no matter what, you would want incorporated in 
legislation.
    Also if you would think about the Cabinet as we have it, 
which I think is a very impressive group of people. Very 
impressive. That what are the initiatives the Cabinet could 
take without waiting for legislation that we could support 
through our mutual appropriations?
    Dr. Hyman. I think the demonstration projects is a key, 
easy to implement idea that can easily show changes in health 
outcomes and costs and be done in community health centers to 
serve underserved populations. If it works there, it is going 
to work everywhere.
    Senator Mikulski. Well, I am thinking of Dr. Sharfstein in 
Baltimore, our commissioner of health, teaming up with our 
superintendent of education, who is already bringing fresh 
fruits and vegetables into our public schools. Well, we have a 
dynamic educational reformer, and Dr. Sharfstein has been a 
leader in the kind of negative things around cough medicine.
    By those two guys getting into a room, actually doing it, 
Baltimore is shifting. We could do this and that. We don't have 
to wait for--demonstration projects, to me, are like clinical 
trials. You will do it incrementally.
    I think what this moment, this Obama effect----
    Dr. Ornish. Totally agree.
    Dr. Weil. As I said, create an Office of Health Education 
in the Department of Education and fund it well, and I would 
love to have input into that. I have lots of ideas.
    Dr. Ornish. Well, when you have been asked to be put in 
charge of health reform in these different areas, in prevention 
and wellness and so on, what does that really mean in terms of 
what is your influence here?
    Senator Mikulski. Well, we don't quite know that yet.
    [Laughter.]
    That is one of my big questions. Because what we know is 
that the President wants health reform, and there is going to 
be leadership out of the White House, and there is.
    Senator Baucus has done a white paper from the standpoint 
of the Finance Committee, and each one of us have been busy 
holding our hearings. Now it is a question of how we are going 
to put the benefit of each one of ours together and actually 
forge a direction. This is why it was so important that we two 
do this together.
    Dr. Ornish. Yes.
    Senator Mikulski. Senator Bingaman does coverage. This is 
not about pomp and circumstances here. Over the years, it has 
been us that have focused on health.
    Dr. Ornish. Yes.
    Senator Mikulski. Senator Harkin, even during very dark 
days, kept a lot going through his Appropriations Committee 
when we had no leadership. This is where the moment is. The 
point of the hearing is to gather the ideas and, quite frankly, 
create the excitement.
    Dr. Ornish. Good.
    Senator Mikulski. We were so pleased that Senator Enzi came 
and is excited. Now, based on this, if you could think in terms 
of specific principles that we could incorporate, 
recommendations, but even where through conversations we could 
get the Cabinet going on some of this, like food and nutrition 
in the schools.
    Dr. Ornish. Yes. Perfect. Thank you.
    Senator Harkin. It just seems that, first of all, I just 
want to correct one thing that Senator Mikulski said. Even 
though I was chair of the Appropriations Subcommittee on NIH, I 
had the usual male blindness that we grow up with until she 
came to me and pointed out how little we were doing in terms of 
women's health at NIH.
    All of the trials and stuff were always men. It was Senator 
Mikulski who spearheaded that operation. As I said, I had the 
usual male blindness on that issue.
    Senator Mikulski. It was take an aspirin a day, keep a 
heart attack away. And it was only men. Now we have included 
women. Now we take an aspirin a day. We are going to go on to 
fruits and vegetables.
    [Laughter.]
    I sure wish that good works were aerobic because then Oprah 
and I would be in better shape in more ways than one.
    At each point, we learn and do something different. This is 
why I think the moment is here. Everything you have been doing, 
this is culminating for you. Again, you all have been really 
the bottom-up and at times facing a lot of criticism and 
naysayers.
    Senator Harkin. Maybe I will make one suggestion here that 
we always think about it in terms of the big picture and 
healthcare reform and what we do there. We have appropriations 
process every year, supposedly. We do reauthorize certain 
bills.
    For example, this year is the reauthorization, as I think I 
mentioned earlier, of the child nutrition bill.
    That happens to come under my Committee on Agriculture 
here, but it is on the Education and Labor Committee in the 
House. That is the school lunch, school breakfast, and the 
WIC--the Women, Infants, Children supplemental feeding program. 
We need to start looking at it from a health standpoint.
    Dr. Ornish. That is right.
    Senator Harkin. What is it, how do we want to change? If 
you want me to ask how you could be involved is to start taking 
a look at this. Giving us your advice, using your platforms--
all of you have very big platforms out there--to start 
informing the public that we have an opportunity this year in 
the reauthorization of this child nutrition bill so that we can 
get healthier foods in schools and that type of thing.
    Dr. Ornish. Well, kids, as you know, perform better, as do 
many people, especially lower socioeconomic kids. That is their 
main meal of the day. That is their good nutrition meal of the 
day, and they perform better. We should get physical education 
back in schools. We have got one State that mandates physical 
education--Illinois.
    Dr. Oz. The issue, though, Dean--and I think we all agree--
is not what to do, it is how to do it. So, if I am 
understanding your request, we all have folks that we dialogue 
and should be dialoguing with, with your teams to understand 
what our action step is.
    If I get a message from you saying there is a big vote 
happening on agriculture, you need to run a show again 
emphasizing that we have zero fiber in school lunch programs. 
We will do that. Everyone here, I think, has a platform to get 
that word out. Whether it is through the Web, television, or 
through professional educational programs, we can do that.
    I think maybe one concrete action step would be for each of 
us to provide contact information to a member of your staff 
that could tell us what to do because, frankly, I can't keep up 
with the sometimes serpentine, often Byzantine-appearing 
process by which decisions are made.
    If we actually get those messages clearly, we want to get 
out in front of the train for you.
    Dr. Ornish. Yes. We are your army.
    Senator Harkin. We have education. We have transportation 
that we talked about. Every time we think about transportation, 
we ought to be thinking about how do we change some of the 
structure so that people have bike paths, walking paths, ways 
of exercising, taking stairs?
    I remember one little thing. I shouldn't go off on these 
stories. Tommy Thompson was Secretary of Health, and I went to 
visit him one day down at the department. I noticed when I went 
to the elevator, there was a sign by the elevator. It said, 
``The stairs are this way. If you climb one flight of stairs, 
you will burn calories.'' I don't remember how many.
    I talked to him about this, and he said it is amazing that 
once he did that, people started taking the stairs. We are just 
creatures of habit. You go to the elevator, you punch a button, 
you get on it. People started climbing the stairs.
    Well, I thought that was a pretty good idea. I called in 
the GSA, the General Services Administration. They run all of 
the Federal buildings in the United States. I said, ``Why don't 
we start doing this in our Federal buildings around the 
country?'' And they have, some better than others.
    So, I put a little thing in legislation to try to get the 
Federal buildings at least to put different things in to 
encourage people to take the stairs rather than taking the 
elevator every day. I am thinking about just little things like 
that.
    If people think, well, I don't have an hour a day to 
exercise. Well, we didn't say you had to exercise 1 solid hour. 
You could exercise 10 minutes here, 10 minutes there.
    Dr. Ornish. Absolutely.
    Senator Harkin. Five minutes here, and that kind of thing. 
Climbing stairs may take you 5 or 7 minutes, but that is pretty 
good exercise.
    I guess what I am getting at is thinking about all the 
little things that we do here to keep focusing on wellness and 
how we promote it. It has transportation, education, and 
health.
    How about Department of Defense? Look at all the money we 
put in there. What are we doing there in the department to 
encourage wellness among our service people, but also among 
those that are returning? I dare say not very much. Not very 
much.
    I am just thinking. Elderly programs. I don't know, maybe 
it was one of you. I don't know. I talked to you so many times 
in the past. Someone said once that this Medicare Part D is 
both a blessing and a curse. Yes, we have gotten more drugs to 
elderly people, but the problem is elderly people are on too 
many drugs.
    Dr. Hyman. That is right. The problem is they are getting 
them.
    Senator Harkin. What?
    Dr. Hyman. The problem is they are getting them. I saw a 
patient the other day had 21 medications when she was 
discharged from the hospital. I was like ``whoa.''
    Senator Harkin. Mark, I have seen practitioners, mostly 
integrative practitioners or alternative practitioners, that 
take some elderly people, if they give them a better diet, give 
them exercise, sociability, you can get them off----
    Dr. Ornish. We have proven that. We have published it in 
peer-reviewed journals. In almost every case, we can reduce or 
get people off of most of these pills if they change the cause 
of what caused it in the first place.
    Then it empowers them. Instead of three or four times a day 
they are reminded they are sick, they get off. Instead of 
saying these are blood pressure pills, cholesterol-lowering 
drugs, diabetes medications you have to take the rest of your 
life. The diabetes study published in the New England Journal a 
few years ago showed that lifestyle changes not only work as 
well as Metformin, one of the major drugs, but even better. The 
only side effects are good ones.
    Dr. Hyman. Yes, I am agnostic when it comes to the tool. I 
think we need to use the best tool, and most often, the best 
tool is diet and lifestyle therapies to not just prevent 
disease, but actually to treat it and reverse it.
    Senator Harkin. I guess I am thinking of getting all these 
targets and just keeping at it. Keeping at all these targets 
that we do every year, and then maybe that they will start to 
add up and people will start doing things differently.
    That is sort of one way of looking at it rather than just 
thinking, well, we are just going to do this whole great big 
thing all at one time. I ask you to think about that. As we do 
these bills and things that come up, how do we keep focusing on 
health?
    Senator Mikulski. Well, Senator Harkin, I think we were 
talking about that. I think you might have been out of the 
room. In the sense of let us go to the--which means even among 
ourselves is the culture of wellness and health promotion, and 
that every opportunity should be an opportunity.
    For example, you are going to be doing the child nutrition 
bill. What a great opportunity for health promotion.
    Dr. Ornish. Yes.
    Senator Mikulski. We are going to be doing the national 
service bill, which would be a great way to begin to 
incorporate this, including even into what will be a ``green 
corps'' because that goes to agriculture. It goes to the 
HealthCorps. It goes to lessons learned and service learning 
and so on.
    If we could have essentially even among ourselves this 
consciousness because that is what a cultural change is, 
consciousness----
    Dr. Ornish. Yes, brilliant.
    Senator Mikulski [continuing]. That whatever we have before 
us, how can we bring this thinking into that action? For 
national service, it would be how do we harvest that effect 
that young people want to participate? They are the ones that 
are going to be edgy and communicate with that.
    The work that you will be doing in agriculture--it is 
really determinative--would be one of the opportunities. We 
could look at what is before the committee while we are also 
working on healthcare.
    The other is, maybe we ought to go back and take a fresh 
look at what we have done in SCHIP and see how taking both what 
we are funding for health insurance, but also thinking about 
our public schools and--really, the wonderful work I think that 
Arne
Duncan can promote.
    We pass a bill, and what we have essentially done is 
provide access for children to physicians, an important thing. 
It is an important first step. But, if that is the only step, 
maybe we need to look at SCHIP and how we could do a medical 
home for children?
    As Dean Ornish and everyone in this room said, people will 
climb mountains barefoot over glass for their children.
    Dr. Ornish. That is right.
    Senator Mikulski. And so, that would be to look to the 
children, for they will be your best teachers.
    Dr. Ornish. Absolutely.
    Senator Mikulski. I think that is what the culture is. And 
we can be the cultural leaders here. You could be a cultural 
icon.
    Senator Harkin. I have never thought about being an icon.
    [Laughter.]
    Dr. Ornish. It is a serious problem.
    Senator Harkin. I am from Iowa.
    [Laughter.]
    Dr. Ornish. What about the farm subsidies? As you have 
talked about so eloquently so many times, instead of 
subsidizing junk food and fat, salt, and sugar, to subsidize 
healthy food? You know, make that available.
    Senator Mikulski. Aw, that salt and sugar.
    Senator Harkin. That is right. That is right.
    Dr. Oz. Can I offer one radical thought? Just because I 
know when we grew our program----
    Senator Mikulski. As compared to everything else you have 
said today?
    [Laughter.]
    Dr. Oz. Yet another radical thought.
    Dr. Hyman. What we are now talking is really common sense.
    Dr. Oz. I know when we started the integrative medicine 
program at Columbia, we ran into a lot of resistance because 
many of my colleagues who were trained with typical test tube 
approaches to this experience were resistant to it because it 
was so difficult to prove it in a double-blind randomized 
fashion.
    We actually changed the culture primarily by making it 
experiential. How many people do the deep breathing and 
laughter therapy? To get functional medicine analysis, to 
understand in a whole different way what lifestyle change could 
be. That it is actually something that you would crave because 
it is about vitality.
    I don't do day-to-day--I do heart surgery. I don't do 
functional medicine and behavior modification. There are people 
on this panel who do. I think it might be worth having members 
of the Senate, House of Representatives, key decision leaders 
experience some of this, perhaps through some of these 
individuals or others that we could help recommend. I know this 
is a commentary that might not be received well by all, but it 
would be done altruistically.
    If someone has a health problem, instead of going to an 
off-tackle approach of, let us say it is cancer, chemotherapy, 
surgery, and then radiation, and then we do it again. Maybe 
they experience it through one of these paths, and then you 
have more advocates like yourselves because they have been down 
the path.
    Dr. Ornish. Well, 15 years ago, we actually did a day-long 
retreat for Members of Congress, and it was cosponsored by Dan 
Burton and Charlie Rangel, which is about--in fact, they joked 
that this was the only thing they ever agreed on.
    You are absolutely right. It is a brilliant idea because if 
people get the experience of it, then they understand it. It is 
not just a ``yes, but.'' They really understand it from their 
own experience.
    Senator Harkin. Mm-hmm.
    Dr. Ornish. I think that would be a really good idea.
    Dr. Hyman. It works quickly. It doesn't take long.
    Senator Harkin. Yes.
    Dr. Hyman. I would just add two things. I think there are 
two areas of leverage that you have already in the stimulus 
package, which is the comparative research for effectiveness 
and the EMR.
    I think just two points about that.
    Senator Mikulski. That is the electronic medical record.
    Dr. Hyman. Right. No. 1, what are we comparing things to? 
Compare drug-to-drug, procedure-to-procedure? Or are we 
comparing the current medical practice with the best available 
things that we are talking about?
    Senator Harkin. You are right on. See, I believe, and we 
already tried to put that comparative effectiveness, and 
believe me, they wanted to yank all that out, and what has this 
got to do with stimulus and stuff like that.
    I share your fear that it is going to be comparative 
analysis between this treatment and the other allopathic----
    Dr. Hyman. Within the old model.
    Senator Harkin. Right. In the old model. That is right.
    Dr. Hyman. The second thing is I am very fearful about 
using electronic medical records to replicate a 19th century 
medical practice model. We need to make it match current 
thinking in systems medicine and integrative care. If we don't, 
we are going to be missing an enormous opportunity. It is 
wasting billions of dollars. That is a huge fear of mine.
    I think the solutions are there. There are people like 
Kaiser who have done these kinds of things. There are other 
people like Google looking at this and HealthVault. I think we 
need to really seriously look at this because if we simply 
replicate this, it is a problem.
    Dr. Ralph Snyderman has written a lot about this. He is the 
chairman emeritus of Duke Health, and he has written about the 
prospective care in terms of a medical record and changing our 
medical record that was designed in the early 19th century and 
20th century to 25th century needs of science and medicine.
    Senator Mikulski. Much of this has to be done in the 
community, and you asked what you could do. I think, first of 
all, promote the concepts of public health and not only as an 
agency, but really what public health is. That is food, air, 
and so on.
    We can do all this, but if those little children in 
Washington, DC or anywhere, like even in parts of my own 
hometown of Baltimore, if children are living in housing 
saturated with lead paint, breathing deeply is the worst thing 
you want them to do. Or drinking water that has got lead in it.
    One is really the promotion of public health and having 
strong leadership at that. Then the other is the concept of 
living in a community.
    Dean Ornish, I think that is where you have talked about 
it, with the ``Healing Heart.''
    Dr. Ornish. Yes.
    Senator Mikulski. Dr. Oz and everyone here, the 
HealthCorps, because all of that is really in the community. 
You do not live alone.
    Dr. Ornish. Absolutely. Study after study have shown that 
people who don't feel that sense of community are many times 
more likely to get sick and die prematurely, in part because 
you are more likely to abuse yourself, in part through direct 
mechanisms.
    The other thing you might consider is bringing together 
some of the heads of the big food companies. I have been 
consulting with people there, and they get it. They are 
starting to get it.
    They are in the behavioral modification business, too. As 
you have pointed out, they can do it in negative ways. They 
know better than anybody how to make something fun and sexy and 
hip and cool and crunchy and convenient.
    If they can use all that advertising and celebrities and 
marketing to make healthy food fun and convenient, to get away 
from this idea of, is it fun for me or is it good for me to say 
why can't it be both? To market to kids healthy types of foods 
and healthy lifestyles, I think there is a willingness now to 
do that because that is where they are finding their revenue 
growth.
    Two-thirds of the revenue growth of Pepsico last year came 
from their healthier foods. Then it is really sustainable when 
it is good business, and I think there is a tipping point here 
that we can build on.
    Senator Mikulski. We also have got some class issues here. 
If our water has lead in it, I can go buy water. But that 
single mother can't.
    Dr. Ornish. Right. I totally agree.
    Senator Mikulski. I think when we talk about software and 
hardware, the fact is, a lot of families don't have computers 
in their home.
    Dr. Ornish. That is true.
    Senator Mikulski. Then how are they going to do that? We 
also have to make sure that whatever we do is available for all 
Americans.
    Dr. Ornish. Everyone. Totally agree.
    Senator Mikulski. That is why we are looking at things that 
are public institutions and what we can do. I am thinking, 
first of all, like public schools would be an area. First of 
all, it is community and so on.
    Senator Boxer chairs the Environment and Public Works 
Committee. She is part of the healthcare team.
    Dr. Ornish. That is right.
    Senator Mikulski. Senator Harkin chairs the Agricultural 
Committee. He is part of the health team. I mean not only 
excellent work here on this committee and Labor/HHS. We could 
go through what each and every one of us do.
    I think that is what we need to do, think about how we are 
all part of the healthcare team. We cannot also create 
something new that changes the paradigm that only changes it 
for the upper middle class.
    Dr. Ornish. I totally agree. The lifestyle choices that we 
found that could prevent and reverse disease, it is essentially 
a Third World diet. You know, it is fruits, vegetables, whole 
grains, legumes, soy products. It is only because of these 
perverse incentives that it is cheaper to eat junk food than 
eat healthy food.
    This food inherently is not expensive. Walking doesn't 
require any special equipment. Doing yoga and meditation 
doesn't require any special equipment. Quitting smoking saves 
you money.
    These are things that we have found in our studies--that 
this idea is just for a bunch of rich white people, is not at 
all true. The people in our studies, in our hospitals that we 
have trained that often benefited the most are the ones who 
have the least access. Ninety-two percent of bypass surgery 
last year was done on white upper middle class men.
    Of course, heart disease is declining in that group. It is 
rising in women, minorities, and lower socioeconomic groups who 
are the ones who can benefit most from these kinds of 
approaches because they don't require high-tech, expensive 
drugs and surgery. They are things that people can do 
essentially for free.
    Dr. Weil. If you want to come back to talking about 
changing these subsidies, as you know, Senator Harkin, it was 
not until last year in all the history of the Farm bill that 
any effort was made to have input from the healthcare community 
about the health consequences of those subsidies.
    To me, that, again, comes back to the lack of education, 
that we have a nutritionally illiterate medical profession and 
allied health professionals. If they understood the 
relationship between diet and health, they could weigh in as a 
powerful counterweight to the vested interests that now 
determine how that money flows.
    Senator Harkin. Well, I will tell you that I labored long 
and hard on this, and the 2001 Farm bill, I was privileged to 
be chairman for a brief span of time there, thanks to Senator 
Jim Jeffords. You may remember he came over and joined us, and 
we had a one-vote margin then. I was chairman during that Farm 
bill debate on this side.
    That is when I started this program of the free fruits and 
vegetables in schools. Small. It started with $5 million. In 
this Farm bill, I got my chairmanship back again last year, and 
we boosted it from $5 million to $1 billion. We got $1 billion 
in this last Farm bill for free fruits, fresh fruits and 
vegetables to kids in schools.
    Now that is going to ramp up. That is once it ramps up. 
Within 5 years, we will cover about 90 percent or more of all 
of the kids in free and reduced price schools, low-income 
areas.
    The second thing we did in this Farm bill is the first time 
ever--in this last Farm bill, we put fruits and vegetables in, 
especially crops in the Farm bill. Never been in the Farm bill 
before.
    There is one other hurdle we have in this. I don't know, I 
shouldn't go off like this--but in the child nutrition bill. 
You know, in the school lunch program, there is a prohibition 
against buying local foods.
    [Laughter.]
    It is very true. I know it sounds ridiculous, but it is.
    Dr. Hyman. Many of the kitchens don't have anything but 
fryers and microwaves. How can they cook real food?
    Senator Harkin. They have got to get big packaged foods 
that are processed and all that kind of stuff.
    Dr. Ornish. Senator, can you share with everyone the story 
that you told me about when you put the fruits and vegetables 
in school how the kids reacted to it?
    Senator Harkin. It was incredible, Dean. First of all, I 
have got to tell you a funny story when I first started on 
this. I had a hearing and I remember because I wanted it not in 
the lunchroom, but in the classroom. When kids get the 
growlies, when they get hungry, they go get a fresh piece of 
fruit or a vegetable or something like that.
    I remember I had testimony from the head of the principals 
association, who sat at the table and was talking about this. 
This is my interpretation of what he said, OK--``Harkin, you 
are crazy.''
    [Laughter.]
    Don't you understand? These kids will be throwing apple 
cores at each other and banana peels, and we will have a mess 
in the classroom. If you are going to do anything like this, 
you have got to do it in the lunchroom.
    Well, I said, ``Look, it is all voluntary. Any school that 
wants to join, can join. If they want to drop out the next day, 
they can drop out the next day. So we started it. We picked 100 
schools, 25 schools in each of four States and one Indian 
reservation.
    Most of them came in in 2003. I can tell you, as of last 
year, not one of those schools asked to drop out, not one. I 
went and visited some of these schools in Ohio and Michigan. 
Iowa was one of those--strange. Anyway, the kids were 
incredible.
    If kids have to put money in the vending machine, it will 
buy something sweet or sugary or a soda or something. If they 
get something free, that is something else. They were getting 
these free fruits and vegetables. I saw these kids eating kiwi 
fruit, never had kiwi fruit. Very high in vitamin C.
    They were eating--I actually saw with my own eyes third 
grade kids eating fresh spinach. They were getting these little 
packages of spinach, and they liked it. Now they might have 
gotten a little dip with it. OK, fine. They got a little 
something with it. Eating carrots and broccoli, eating fresh 
stuff in these schools. These little kids, third, fourth, and 
fifth grade.
    I remember I visited a school once in Michigan, low-income 
area in Detroit, and fifth grade kids in Detroit. They were 
having fresh oranges. Oranges. They had some device how to peel 
it, too. Anyway, the teacher said that some of these kids have 
never had a fresh orange in their lives. Fifth grade kids have 
never had a fresh orange.
    They don't get fresh apples. When they come in, they are 
gone. They are just gone. One school I remember that they got 
the strawberries in before the school was out for the summer. 
The first crop of strawberries came in, and by 10 a.m., there 
wasn't a strawberry left in the school.
    Dr. Ornish. You know they get their taste preferences when 
they are young, too.
    Senator Mikulski. Well, could I talk about taste 
preferences? I have a question because I think this story is so 
poignant and so to the point.
    Dr. Ornish. Absolutely.
    Senator Mikulski. It is a question that I have had for some 
time which is about the introduction of fructose. Because it is 
not only what you eat, what you know, and what you see, but it 
is what you don't see. Because one of the things you learn in 
any kind of genuine and authentic nutrition counseling program 
is that which is hidden from you, hidden fats and hidden 
sugars. And you read labels.
    Everywhere I turn, when I read the labels, I see fructose, 
fructose, fructose. There are some who really raise the 
question about the metabolic impact of fructose and also just 
the overall impact, particularly on children in their foods, 
etc, etc. Could you share with us----
    Dr. Hyman. Yes.
    Senator Mikulski. Even there have been some who said when 
fructose was introduced so mainstream, that is when type 2 
diabetes went up, particularly among children.
    Dr. Hyman. That is right. In 1980 was really when it found 
widespread introduction, and now we have gone from almost none 
to 66 pounds of high-fructose corn syrup consumed by the 
average American.
    Senator Mikulski. Is that every year?
    Dr. Hyman. That is every year. That has been associated 
temporally, maybe not causally, with the increase in diabetes 
and obesity in children. What is concerning about it also is 
that it has different metabolic effects.
    Now when fructose is part of fruit, it is different. It is 
with fiber, nutrients, and other things that slow its 
metabolism and so forth. Fructose doesn't have the same 
regulatory capacities as sugar, regular glucose, because it 
doesn't need insulin to enter the cells. It doesn't send back 
signals of leptin to the brain to say you are satisfied. So you 
remain hungry.
    It increases triglycerides in cells that causes fatty 
liver. There are 70 million Americans with fatty liver from 
eating sugar and high-fructose corn syrup in this country now. 
It is an epidemic, which I didn't see when I was in training 
just 20 years ago.
    We also have found recently in the environmental health 
perspectives that part of the processing of high-fructose corn 
syrup, and Michael Pollan wrote about this, he wasn't allowed 
by Archer Daniels Midland to go into the factories to see how 
it was processed. I think this may be why. This was through an 
FDA study. They looked at the way they process high-fructose 
corn syrup, and they use caustic soda, which comes from chlor-
alkali plants, which are sources of mercury.
    They found in many high-fructose corn syrup products 
relatively high levels of mercury, and in the small amounts, it 
may not be an issue. When you sort of say the average person 
has 66 pounds a year, what are the implications of that? That 
was just published a few weeks ago.
    We also look at these foods and their impact on the brain. 
Dr. Kelly Brownell from Yale University has done work looking 
at the role of junk food and processed foods on brain function 
and found that there are the same addictive properties to these 
foods with high-fructose corn syrup, trans fats, and high 
sugars and fats as heroin or cocaine. The addictive property is 
huge.
    Studies have been done on rats showing that artificial 
sweeteners actually slow metabolism and increase weight. 
Studies have shown on high-fructose corn syrup that these foods 
actually drive behavior that leads to eating more.
    These are really important things to understand and deal 
with.
    Dr. Weil. The overwhelming concern about high-fructose corn 
syrup is, it is not mercury contamination, it is not addiction. 
It is, it will be proved to be the single most potent provoker 
of insulin resistance in people who are genetically programmed 
to develop that, which is a substantial number of our 
population.
    I would say there are two chief culprits in the American 
diet at the moment. One is high-fructose corn syrup. The other 
is refined soybean oil, which is the major reason why our diets 
are so overloaded with pro-inflammatory Omega-6 fatty acids 
that creates huge consequences for chronic disease.
    Both of these products, both of these ingredients are 
ubiquitous in manufactured, refined, and processed food because 
they are cheap. They are cheap because the Federal Government 
subsidizes them. That has to change.
    The issue of insulin resistance and the role of high-
fructose corn syrup in that, I think this will be proved to be 
a chief culprit in the childhood obesity epidemic and in all of 
the health consequences that follow from childhood obesity.
    Dr. Ornish. When parents hear the statistics, I am sure you 
have heard repeated that this may be the first generation which 
our kids live shorter lives than some of their parents. That 
really gets people's attention, and there is an opportunity. 
Then they start to listen, as you were saying, Senator.
    Senator Harkin, I just want to emphasize again, the story 
you told about getting fresh fruits and vegetables and giving 
them away to kids--think of it as an investment because you are 
not saying ``Eat your fruits and vegetables'' and wagging your 
finger. You are saying, ``Hey, this is really fun. This is 
cool. It tastes good.''
    You don't have to tell them to eat the food. They love it. 
There is none left. Then they get it from their own experience 
because what I have learned in 32 years of doing this work is 
what is sustainable is pleasure and fun.
    If it tastes good and people start to learn that these 
foods taste good, they start to eat that way, and then they 
continue to eat that way throughout their life. It is not 
because they think it is good for them because it just tastes 
good.
    Senator Harkin. The one thing, though--now that we have all 
looked at high-fructose corn syrup, refined soybean oil--would 
you address yourself to the huge amounts of sodium chloride, 
NaCL, that is put into all of our foods everywhere you go. I 
mean the sodium is just----
    Dr. Hyman. That is the way it tastes good, salt and sugar. 
That is the way it makes it taste good, sugar and salt and fat.
    Senator Harkin. I didn't hear that.
    Dr. Hyman. The way things taste good is salt, sugar, and 
fat.
    Dr. Ornish. They are modifiable. Studies have shown anybody 
who has ever tried to eat less salt, at first it doesn't taste 
good. Then it may taste fine. You go out to dinner. Suddenly, 
the food tastes too salty. The same is true if you switch from 
whole milk to low-fat or skim milk. At first, it doesn't taste 
good. Then it tastes fine. You go out to dinner. Suddenly, the 
taste----
    Dr. Weil. The bottom line nutritional advice that I give 
people, if I have just one sentence to tell them what to do, is 
to try to stop eating refined, processed, and manufactured 
food. It is, however, discouraging to see how popular that kind 
of food is wherever it gets put down in the world.
    I know there was mention made here of Okinawa and longevity 
studies there. I made three trips to Okinawa to study healthy 
aging in the past 10 years, and in the short time that I made 
those visits, Okinawan longevity began to plummet. Okinawan men 
and women were the longest-lived people in the world. Okinawan 
men no longer are.
    That change principally happened because of the 
introduction of American-type fast food, which instantly became 
popular. The New York Times had a front-page article about that 
a few years ago. I remember a quote in there from a middle-aged 
Okinawan man who said the first time he tasted a McDonald's 
hamburger, he thought he had died and gone to heaven.
    I mean, how could that be? These people have one of the 
most interesting diets I have ever encountered in the world. I 
mean, filled with the most amazing fruits and vegetables and 
sea vegetables and fish and herbs. You see this everywhere, 
whether it is Russia, China, South America. Whenever this kind 
of food becomes available, people go for it.
    It suggests to me that these big food corporations have 
invested a lot of time, money, and effort in figuring out basic 
combinations of fat, salt, sugar, crunch that are universally 
appealing. I think this food is addictive.
    Dr. Ornish. Yes, we are globalizing chronic disease. Other 
countries are starting to eat like us and live like us and die 
like us. It has all happened within one generation. There is an 
opportunity to do preventive medicine on a global scale if we 
can change that.
    Dr. Hyman. I think what is not recognized is that insulin 
resistance affects over 100 million Americans, and it is not 
just about obesity. It leads to hypertension. It causes cancer. 
Alzheimer's is called ``type 3 diabetes.'' It is connected to 
depression, which is going to be the leading cause of 
disability very soon in this country.
    These are problems that are directly related to our diet, 
and they are not going to be solved by finding the pill or 
magic cure for it.
    Dr. Ornish. When you figure the cost of what it costs to 
give free fruits and vegetables to kids, counterbalance that by 
what you are saving from all these costs that are directly tied 
to that, both directly and indirectly.
    Dr. Hyman. We are not passionate about this at all, you can 
see.
    [Laughter.]
    Dr. Ornish. We are so grateful to be here.
    Senator Harkin. Speaking for myself, I am just so grateful 
to all of you. I don't mean to be pandering or anything like 
that, but you are all my heroes. You really are, every single 
one.
    Dr. Ornish. Back at you.
    Senator Harkin. You have led the way. I read your books. I 
think, my God, why don't people get this? Why don't we start 
changing these structures and things like that?
    We keep trying to do what we can and try to change these 
things. We really need you. I mean we need you badly to really 
be involved in this new healthcare reform process, looking at 
all the different aspects of it.
    I don't know how. That is why I asked you earlier how we 
could use you and the platforms you have and the expertise you 
have, the knowledge base you have to really start getting this 
thing moved.
    I don't think that we can change it overnight. But by gosh, 
we can make some changes that over the next several years will 
really start moving us in a different direction.
    Again, thank you for all the great work you have done. I 
just can't tell you how much I appreciate each and every one of 
you.
    Witnesses. Thank you, Senator Harkin and Senator Mikulski.
    [Applause.]
    Senator Harkin. Thank you very, very much.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                      Statement of Senator Kennedy

    The American health care system urgently needs repair and 
reform. Today as a Nation, we spend 16 percent of our gross 
domestic product on health care, more per capita than any other 
country in the world. Yet health outcomes of Americans are 
ranked 37th in the world by the World Health Organization. Our 
system is often called a ``sick care'' system, not a health 
care system, because it is designed to treat diseases and 
illnesses, instead of promoting good health and wellness over 
the lifespans of our people.
    Genuine health reform therefore requires a major 
transformation in our national mindset on how we care for 
ourselves and others. It must incorporate and encourage disease 
prevention activities and lifestyle changes that promote long-
term health and well-being. The current incentives in our 
health care system that lead to over-treatment and mistreatment 
must be changed to promote high-quality, appropriate, and 
coordinated health care. The Nation's alarmingly high and 
growing rates of obesity and chronic disease today are a clear 
call to action. By preventing diseases before they start and 
adopting a broader approach to medicine, we will actually 
reduce costs in the long run, and we will extend and improve 
the quality of life as we do it.
    To achieve this fundamental shift in our Nation's health 
care mindset, it will be necessary to reform how medicine is 
practiced. Low-cost or even free health screenings and 
vaccinations will encourage individuals to take part in 
preventive medicine. Patient-centered and coordinated care that 
addresses the whole person--from genetic predispositions, to 
life-style choices to potentially harmful conditions--is 
essential for treating acute diseases and managing chronic 
conditions. We must also adopt a more integrated approach to 
medicine, through health care that addresses the mental, 
emotional, and physical aspects of the healing process in order 
to improve the depth, breadth, and patient choice in clinical 
practice.
    Further, we must incorporate prevention, wellness, and more 
patient-centered approaches as fundamental components of 
medical education and the training of health providers. In 
order to reach the patient effectively, integrative practices 
must be accepted throughout our health care system, and 
especially in the education of health care providers and the 
consumers who will benefit.
    Finally, we can look beyond the traditional health care 
system to the community itself--to local environments, where we 
can build sidewalks and bike lanes; to workplaces, where 
wellness programs can help employees include healthy nutrition 
and exercise in their lives; and to schools, where we can 
provide preventive screenings and lay a strong foundation for 
students to lead healthy lifestyles from an early age.
    Americans deserve a health care system that provides this 
kind of high-quality, patient-centered care, and encourages 
individuals' choices and control over their health. The result, 
as I have said, of this new focus on prevention and health 
promotion will be lower health care costs and longer, healthier 
lives.
    I commend Senators Harkin and Mikulski for their continuing 
leadership on this important issue, and I look forward to 
working closely with my colleagues on the HELP and Finance 
Committees and with President Obama to achieve our fundamental 
goal of improving the quality of health care, expanding access 
to such care for all our people, and reducing the financial 
burden of such care.

    [Whereupon, at 12:30 p.m., the hearing was adjourned.]




</pre></body></html>
